<html>
<title> - WASTE AND DUPLICATION IN THE USDA CATFISH INSPECTION PROGRAM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






      WASTE AND DUPLICATION IN THE USDA CATFISH INSPECTION PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 7, 2016

                               __________

                           Serial No. 114-178






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

23-971                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                           
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
MARSHA BLACKBURN, Tennessee          LOIS CAPPS, California
  Vice Chairman                      MICHAEL F. DOYLE, Pennsylvania
STEVE SCALISE, Louisiana             JANICE D. SCHAKOWSKY, Illinois
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            KATHY CASTOR, Florida
LEONARD LANCE, New Jersey            JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    PETER WELCH, Vermont
DAVID B. McKINLEY, West Virginia     BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia         YVETTE D. CLARKE, New York
GUS M. BILIRAKIS, Florida            DAVID LOEBSACK, Iowa
BILL JOHNSON, Ohio                   KURT SCHRADER, Oregon
BILLY LONG, Missouri                 JOSEPH P. KENNEDY, III, 
RENEE L. ELLMERS, North Carolina         Massachusetts
LARRY BUCSHON, Indiana               TONY CARDENAS, California
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                         Subcommittee on Health

                     JOSEPH R. PITTS, Pennsylvania
                                 Chairman
BRETT GUTHRIE, Kentucky              GENE GREEN, Texas
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
LEONARD LANCE, New Jersey            JOHN P. SARBANES, Maryland
H. MORGAN GRIFFITH, Virginia         DORIS O. MATSUI, California
GUS M. BILIRAKIS, Florida            BEN RAY LUJAN, New Mexico
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
RENEE L. ELLMERS, North Carolina     JOSEPH P. KENNEDY, III, 
LARRY BUCSHON, Indiana                   Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     3
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     4
Hon. Gregg Harper, a Representative in Congress from the State of 
  Mississippi, opening statement.................................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    90

                               Witnesses

William Jones, Ph.D., Acting Deputy Director, Office of Food 
  Safety, Food and Drug Administration...........................     8
    Prepared statement...........................................    11
Steve Morris, Acting Director, Natural Resources and Environment, 
  Government Accountability Office...............................    22
    Prepared statement...........................................    24
Kim Gorton, President and CEO, Slade Gorton & Co., Inc...........    51
    Prepared statement...........................................    54
Bart Farrell, Director of Food And Beverage, Clyde's Restaurant 
  Group..........................................................    60
    Prepared statement...........................................    62
Justin Conrad, CEO, Bay Hill Seafood, President, Libby Hill 
  Seafood........................................................    72
    Prepared statement...........................................    74
Steve Otwell, Seafood Safety and Technology Emeritus, UF Food 
  Science And Human Nutrition, Aquatic Food Products Lab, 
  University of Florida..........................................    77
    Prepared statement...........................................    79

                           Submitted Material

Letter of June 22, 2016 from Committee Members to congressional 
  leaders........................................................    91
Letter of September 9, 2014 from Committee Members to the Office 
  of Management and Budget.......................................    95
Letter of November 26, 2013 from Committee Members to the 
  Committee on Agriculture.......................................    97

 
      WASTE AND DUPLICATION IN THE USDA CATFISH INSPECTION PROGRAM

                              ----------                              


                      WEDNESDAY, DECEMBER 7, 2016

                  House of Representatives,
                            Subcommittee on Health,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2322, Rayburn House Office Building, Hon. Joseph R. Pitts 
(chairman of the subcommittee) presiding.
    Present: Representatives Pitts, Guthrie, Barton, Burgess, 
Blackburn, Lance, Griffith, Bilirakis, Long, Bucshon, Brooks, 
Collins, Green, Schrader, Kennedy, and Pallone (ex officio).
    Also Present: Representative Harper.
    Staff Present: Paul Eddatel, Chief Counsel, Health; Blair 
Ellis, Digital Coordinator/Press Secretary; Jay Gulshen, 
Legislative Clerk, Health; Carly McWilliams, Professional Staff 
Member, Health; Tim Pataki, Professional Staff Member; Jennifer 
Sherman, Press Secretary; Heidi Stirrup, Health Policy 
Coordinator; John Stone, Counsel, Health; Josh Trent, 
Professional Staff Member, Health; Jeff Carroll, Minority Staff 
Director; Tiffany Guarascio, Minority Deputy Staff Director and 
Minority Chief Health Advisor; Samantha Satchell, Minority 
Policy Analyst; and Megan Velez, Minority FDA Detailee.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. The time of 10 o'clock having arrived, I will 
call this subcommittee meeting to order. This is the last 
hearing of the session, so an interesting hearing. And we have 
one of our colleagues on Energy and Commerce, Mr. Harper of 
Mississippi, waived on to take part as well. But thank you all 
for coming.
    The chair will now recognize himself for an opening 
statement.
    Today's hearing will take a closer look at what some 
consider an unnecessary and duplicative program at the U.S. 
Department of Agriculture, the catfish inspection program.
    Why is it considered unnecessary and duplicative? Because 
we already have a Federal agency responsible for overseeing the 
safety and inspection of other types of seafood: it is the FDA, 
the Food and Drug Administration.
    As members of the Health Subcommittee of the Energy and 
Commerce Committee, with direct oversight of the FDA, it seems 
illogical that the USDA would be given the exclusive authority 
to oversee and regulate catfish only while the FDA regulates 
all other seafood.
    What is it about catfish? Well, catfish is an extremely 
low-risk food product. Explicitly creating a program 
exclusively for catfish seems to be unnecessary, and it directs 
resources away from high-risk foods to focus on food that is 
one of the safest.
    Think for a moment what this means to American seafood 
companies, who are put in the untenable position of complying 
with two sets of Federal inspectors overseeing their 
facilities--one set for catfish and one set for all other 
seafood. Why would companies continue to purchase catfish given 
this additional burden?
    What makes this scenario even more troubling is the fact 
that both the FDA and the General Accountability Office agree 
that there is no food safety justification for this regulatory 
divide.
    I, along with some of my colleagues on the committee, 
Chairman Upton and then-Ranking Member Waxman and current 
Ranking Member Pallone, sent a letter in 2013 to our 
Agriculture Committee colleagues expressing this very point. In 
2014, we sent another letter to the Director of the Office of 
Management and Budget expressing our concerns about this 
program. And in June of 2016, we sent yet another letter to 
House leadership urging the House to consider S.J. Res. 28, 
which would repeal the program. And the Senate had already 
passed Senate Resolution 28 by a vote of 55 to 43.
    Since the very beginning of this transfer of regulation 
from FDA to USDA, the justification was to ensure food safety. 
But USDA's expertise is meat and poultry, not fish. The real 
move seems to be to hinder foreign firms from importing catfish 
so that they will be unable to compete with domestic catfish 
farmers. Such actions could trigger a WTO lawsuit.
    Another concerning aspect is that this USDA program has 
cost the American taxpayers a lot of money without much to show 
for it. GAO has issued no less than nine reports indicating 
that the responsibility of inspecting catfish should not be 
assigned to the USDA. Charged with overseeing over 80 percent 
of the food Americans eat, we have long entrusted FDA to be the 
primary regulator of our food supply, and the FDA has the 
scientific expertise and regulatory experience to oversee the 
entirety of the seafood market.
    Many of you know that I am also a critic of the sugar 
program. It exists primarily, some would say solely, to create 
barriers to competition, ensure the profits of a special 
interest group. And so I view this duplicative catfish program 
in the same light.
    The jurisdictional grab serves only to shield catfish 
farmers against competition at the expense of U.S. consumers. 
So such duplicative programs can negatively impact the U.S. 
economy at a time when we can ill afford that.
    So this seems to smack of food politics, not public health. 
And the consequences are more than just waste and duplication; 
the program will increase costs for consumers and ultimately 
hurt the catfish market.
    But we are going to hear both sides on this issue today, 
and I applaud all those who have come in--people, 
organizations--to voice their concern, to weigh in and educate 
our Members on both sides of the issue.
    I welcome you to this hearing and now yield the rest of my 
time to Vice Chairman Guthrie.
    [The prepared statement of Mr. Pitts follows:]

               Prepared statement of Hon. Joseph R. Pitts

    Today's hearing will be taking a close look at what many 
consider an unnecessary and duplicative program at the U.S. 
Department of Agriculture (USDA)--the catfish inspection 
program.
    Why is it considered unnecessary and duplicative? Because 
we already have a federal agency responsible for overseeing the 
safety and inspection of other types of seafood--it is the Food 
and Drug Administration (FDA).
    As Members of the Health Subcommittee of the Energy and 
Commerce Committee with direct oversight of the FDA, it is 
illogical (and wasteful) that the USDA would be given the 
exclusive authority to oversee and regulate catfish only, while 
the FDA regulates all other seafood. What is it about catfish? 
Interestingly enough--nothing! Catfish is an extremely low risk 
food product. Explicitly creating a program exclusively for 
catfish is unnecessary and directs resources away from high 
risk foods to focus on a food that is one of the safest.
    Think for a moment what this means to American seafood 
companies who are put in the untenable position of complying 
with two sets of federal inspectors overseeing their 
facilities: one set for catfish and one set for all other 
seafood. Why would companies continue to purchase catfish given 
this additional burden?
    What makes this scenario even more troubling is the fact 
that both the FDA and the General Accountability Office (GAO) 
agree that there is no food safety justification for this 
regulatory divide and I, along with my colleagues on this 
committee--Chairman Upton, then-Ranking Member Waxman, and 
current Ranking Member Pallone, sent a letter in 2013 to our 
Agriculture Committee colleagues expressing this very point. In 
2014, we sent another letter to the Director of the Office of 
Management and Budget expressing our concerns about this 
program, and in June of 2016, we sent yet another letter to 
House Leadership urging the House to consider S.J. Res. 28, 
which would repeal the program.
    The Senate has already passed S.J. Res. 28 by a vote of 55-
43, a significant vote indeed.
    Since the very beginning of this transfer of regulation 
(from FDA to USDA) the justification was to ensure food safety. 
But USDA's expertise is meat and poultry, not fish. Frankly, 
the real aim of this move was to hinder foreign firms importing 
catfish so they would be unable to compete with domestic 
catfish farmers. Such actions could trigger a World Trade 
Organization (WTO) lawsuit.
    Another concerning aspect is that this USDA program has 
cost the American taxpayers an exorbitant amount of money 
without much to show for it.
    The GAO has issued no less than nine reports indicating 
that the responsibility for inspecting catfish should not be 
assigned to the USDA. Charged with overseeing over 80 percent 
of the food Americans eat, we have long entrusted FDA to be the 
primary regulator of our food supply. And, FDA has the 
scientific expertise and regulatory experience to oversee the 
entirety of the seafood market.
    Many of you know I am also a fierce critic of the sugar 
program. It exists primarily--and some would say solely--to 
create barriers to competition and ensure the profits of a 
special interest group. I view this wasteful catfish program in 
the same light.
    This jurisdictional grab, when weighed against its 
duplicity, serves only to shield catfish farmers against 
competition at the expense of U.S. consumers. Such wasteful and 
duplicative programs can negatively impact the U.S. economy at 
a time we can ill afford that. If you want an example of what's 
wrong with Washington, the catfish program is a textbook 
example.
    Sadly, this smacks of food politics, not public health. And 
the consequences are more than just waste and duplication. The 
program will increase costs for consumers and ultimately hurt 
the catfish market.
    Experts in public health, public policy, economics, trade 
and regulation have called for the repeal of the catfish 
inspection program that does not improve food safety but does 
cost American jobs and wastes American tax dollars. I applaud 
the people and organizations that have voiced concerns about 
the program and I am glad we are holding this hearing today to 
ensure it is clear that this committee does not support this 
program and we urge its repeal immediately.

    Mr. Guthrie. Thank you very much, Mr. Chairman.
    And I just want to say, when the full chairman came to me, 
Chairman Upton, and said would you like to serve as vice 
chairman, I was excited because I was going into a lot of good 
policy. But what I didn't realize is how, serving with Chairman 
Pitts, I was going to make a dear friend.
    And so this is his last hearing scheduled as chair, so I 
just want to point out that Chairman Pitts is a wonderful 
person, a great person to work with, done a great job running 
this subcommittee ever since I have been on this subcommittee. 
He is also from Asbury University, which is in my district. And 
he will be having honors there, and I look forward to doing 
that in the spring.
    And the other thing that I have thoroughly enjoyed is 
getting to sit by Heidi. Heidi runs a great meeting, and, as I 
found out, she is also a NASCAR fan, which is fun.
    And then the people behind us, the people that--Chairman 
Pitts has run a great committee, but it is because of the staff 
here.
    And so I have had an honor of serving with you, Mr. 
Chairman. I think you have done a great job. And 
congratulations on your retirement.
    Mr. Pitts. Thank you. And I second the motion on Heidi----
    [Applause.]
    Mr. Pitts. Thank you. And I second your sentiments on the 
staff. You are only as good as your staff. They are the best. 
So, Heidi and all of you, Paul, thank you very much.
    At this point, we recognize Mr. Green.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman.
    Well, let me follow that up. I want to thank you for 
serving as chair of the committee. I know we have done some 
really good things in these 2 years that I have been the 
ranking member and you have been the chair. And obviously, we 
will miss you, Joe, but keep in touch with us.
    Again, your staff has been great to work with, and 
particularly Heidi. Thank you. Because, like you said, we all 
know that our staff is the one that makes us look good to make 
sure we can say these points.
    Well, let me go into my statement now.
    In my part of the country, catfish is a staple, and that is 
why it is so important in east Texas and all through the South. 
And I think this resolution is a good resolution. I didn't 
particularly like the way it was done in the ag bill, but--the 
FDA actually regulates other food sources, including fish. But 
I also know there are some issues with competition from 
overseas, as the chairman said, and some of the places where 
they raise catfish would not be allowed in our country. But I 
think the FDA has that authority to be able do that, and we can 
encourage them through our committee.
    The Food and Drug Administration has for many years been 
the first line of defense when it comes to food safety. Under 
provisions of the Food, Drug, and Cosmetic Act and Public 
Health Service Act, the FDA has historically been responsible 
for regulation of seafood within the U.S., a job which it has 
done admirably.
    The 2008 farm bill conferees removed the FDA of its 
jurisdiction over catfish and added language creating a new 
program at the USDA. It is important to note that this language 
has never appeared in either the House bill or the Senate farm 
bill and was never publicly discussed at the hearing or markup 
in committee. The establishment of a new program under the USDA 
is a textbook example of a solution in search of a problem.
    The USDA has the responsibility for ensuring much of the 
Nation's food supply is safe and properly labeled but until the 
creation of the separate catfish program never had jurisdiction 
over seafood products. Unfortunately, we have heard from many 
companies, including those represented here today, this has 
established two varying sets of Federal standards, which has 
created undue complexity and regulatory burdens for American 
companies that does nothing to advance consumer wellbeing.
    Both the USDA and the GAO have agreed that there are no 
food safety concerns to justify this dual regulatory system. 
The GAO has conducted multiple reports that identify the USDA 
catfish program as duplicative and a waste of taxpayer dollars.
    In May of this year, the Senate passed a bipartisan joint 
resolution, SJR 28, to end the USDA catfish inspection program. 
In September, Representatives Roybal-Allard and Hartzler sent a 
bipartisan letter with more than 206 signatures to the House 
leadership requesting we as a body pick up the SJR 28. 
Bipartisan members of the Energy and Commerce Committee wrote 
leadership, as well, asking the chamber to take up the 
resolution and restore the FDA's authority and ensure the 
review of seafood is comprehensive and not arbitrarily split 
among agencies.
    There are more than 220 Members on record as supporting the 
return of the program to USDA oversight, more than enough to 
show that leadership should bring up this for a vote before the 
end of the 114th Congress.
    It is my hope that in today's hearing we can hear from 
expert witnesses at the FDA and within the industry to ensure 
that we are not only using the best regulatory system to 
protect consumers but also being fiscally prudent.
    I would like to thank the chair for this important meeting 
and thank our witnesses for taking time to be here.
    And thank you, Mr. Chairman, and I will yield a minute to 
anyone who wants it.
    Hearing no takers, I will yield it back.
    Mr. Pitts. The gentleman yields back.
    Is there anyone on our side of the podium seeking 
attention?
    If not, the chair recognizes the gentleman from 
Mississippi, Mr. Harper, 5 minutes for an opening statement.

  OPENING STATEMENT OF HON. GREGG HARPER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF MISSISSIPPI

    Mr. Harper. Thank you, Chairman Pitts. And thank you for 
your great leadership and service here in Congress. You will be 
missed.
    And thank you, Ranking Member Green and members of the 
subcommittee, for providing me the opportunity to participate 
in today's hearing.
    Reviewing the efficiency and effectiveness of executive 
activities is necessary to ensure the proper and responsible 
use of tax dollars, and I take our congressional oversight 
responsibilities very, very seriously.
    Despite being a strong supporter of the catfish inspection 
program currently being administered by the USDA Food Safety 
and Inspection Service, I didn't request to attend this hearing 
to debate about whether or not catfish jurisdiction should be 
under USDA or FDA. That has been decided by Congress, not once 
but twice. The merits of the catfish inspection program have 
been debated at length in Congress during the deliberations of 
the last two farm bills.
    Overwhelming evidence suggests that imported catfish and 
catfish-like products represent a significant food safety 
threat to the American public. And, accordingly, Congress 
transferred inspection authority from FDA to USDA's Food Safety 
Inspection Service, FSIS.
    Unfortunately, the FDA inspection system was inadequate, 
and it conducted inspections on a mere 0.2 percent of imported 
catfish species. Since USDA already inspects farm-raised meats, 
including foreign beef, pork, and poultry, Congress decided 
that the same standards should apply to farm-raised catfish so 
that these products receive comprehensive inspection.
    Arguments made by opponents certainly are understood. But 
first, USDA projects the program would cost much less than what 
has been stated. And remember, too, that there is no 
duplication, as FDA no longer inspects catfish, and all 
inspection activities have been transferred, pursuant to the 
provisions of the 2008 and 2014 farm bills.
    Finally, the rule simply requires foreign suppliers to meet 
an equivalent safety standard as our domestic producers, a 
policy that allows all market participants to compete on a 
level playing field.
    The catfish inspection program is critical to public 
health. In 2007, Congress acknowledged an alarming amount of 
farm-raised seafood was entering the country containing banned 
substances and dangerous chemicals, but FDA was not 
appropriately inspecting to assure the safety of U.S. 
consumers. This is a reason this happened. There is much 
support for what we are doing now with it remaining with the 
USDA since it is already there.
    You have many States, including Louisiana, Mississippi, 
Arkansas, and the American Farm Bureau Federation, to name a 
few, that are supportive of what we are doing. I think it is 
fine to have this hearing, but I do believe that the program is 
working, it is cost-effective, and it is a good use of taxpayer 
dollars.
    And, with that, Mr. Chairman, I thank you and yield back.
    Mr. Pitts. The chair thanks the gentleman and now 
recognizes the ranking member of the full committee, Mr. 
Pallone, 5 minutes for an opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    I just wanted to say some nice things about you. I know 
that you are leaving. Because there was never an occasion, 
really, in the time that you were the chairman of the 
subcommittee, including when I was the chairman--and I think 
you were the ranking member then, I don't exactly remember--
when you were not cooperating and trying to do everything on a 
bipartisan basis. And many times when I would ask you to do 
something that maybe you didn't even want to do, you still paid 
attention and tried to accommodate.
    So I just want to say that, really, your friendship and 
your willingness to work with Democrats is unparalleled, and I 
thank you for that. And I see that the people that leave this 
place always seem to be much happier. I am sure that will be 
true for you, as well.
    Mr. Green. He won't have to beg for money.
    Mr. Pallone. Right.
    I also wanted to say how important this hearing is, because 
ensuring that our Nation's seafood supply is safe, sanitary, 
and wholesome is really essential. And seafood, including 
catfish, is a healthy source of protein, and it is critical 
that we do our part to ensure this commodity is readily and 
easily available to American consumers.
    I don't know, maybe, actually, Gene, maybe catfish is not 
considered seafood. I keep thinking about seafood because I am 
along the coast, but maybe--it is really freshwater, right? It 
is not saltwater.
    Mr. Green. Yes.
    Mr. Pallone. So the FDA is the primary watchdog of our food 
supply, and it oversees approximately 80 percent of the food 
Americans eat. Unfortunately, FDA was stripped of its oversight 
of catfish when, in 2008, conferees secretly inserted language 
into the farm bill creating a new catfish program at USDA. And 
this was done without any formal support of the House and 
without any evidence that there was an existing food safety 
problem associated with catfish that warranted a new program.
    And the fact is the new program was and is not needed. The 
GAO has cited the USDA's catfish program as an example of a 
duplicative government program in 10 different reports. As 
recently as April, GAO concluded that repealing the USDA 
catfish program would eliminate a duplicate Federal program and 
save the American taxpayers millions of dollars each year 
without affecting the safety of catfish.
    And earlier this year, the Senate passed a bipartisan 
Congressional Review Act joint resolution to end the 
duplicative and wasteful USDA catfish inspection program. If 
this resolution were enacted, it would return catfish oversight 
back to FDA, where it belongs.
    That is why Chairman Upton and I sent a bipartisan letter 
signed by 34 members of this committee to the House leadership 
urging that the Senate joint resolution be brought up for 
consideration before the House. And a subsequent bipartisan 
letter to leadership was sent by Representatives Lucille 
Roybal-Allard and Vicky Hartzler, this one signed by 206 
Members, also urging the House to consider the Senate joint 
resolution.
    Between these two letters, there are 220 Members on record 
in support of bringing the resolution to the floor and 
eliminating the USDA's catfish inspection program. That is a 
clear majority of the House.
    So I look forward to hearing more from our witnesses today 
about how FDA's existing seafood inspection program is 
sufficient to ensure the safety of catfish for American 
consumers and why USDA's program is not necessary to protect 
public health. And I am also interested in learning more about 
the cost of this program to taxpayers and the impact USDA's 
duplicative seafood inspection program has on the seafood 
industry and American consumers.
    And I just hope, Mr. Chairman, this hearing helps highlight 
why the House must take action on the Senate joint resolution 
quickly and move to nullify USDA's inspection program. And I am 
just glad our committee continues its track record of working 
together to ensure that food safety is fiscally sound.
    Thanks again, Mr. Chairman. I yield back.
    Mr. Pitts. The chair thanks the gentleman.
    I have a UC request. I ask unanimous consent to submit the 
following: 10 reports from GAO on this topic \1\ and 3 
bipartisan letters the committee has sent out over the past 3 
years. One from June 2016 to House leadership, one from 
September 2014 to OMB, and one from November 2013 to the House 
Committee on Agriculture.
---------------------------------------------------------------------------
    \1\ The reports were unavailable at the time of printing,
---------------------------------------------------------------------------
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Pitts. That concludes the opening statements of members 
present. As usual, all written opening statements of members 
will be made a part of the record.
    We have two panels of witnesses today. Our first panel is 
comprised of William Jones, Acting Deputy Director, Office of 
Food Safety, Food and Drug Administration; and Steve Morris, 
Acting Director of the Natural Resources and Environment, 
Government Accountability Office.
    Thank you for coming today. Your written testimony will be 
made part of the record. You will each be recognized for 5 
minutes to summarize your testimony.
    And so, at this point, Dr. Jones, you are recognized for 5 
minutes.

  STATEMENTS OF WILLIAM JONES, PH.D., ACTING DEPUTY DIRECTOR, 
OFFICE OF FOOD SAFETY, FOOD AND DRUG ADMINISTRATION; AND STEVE 
  MORRIS, ACTING DIRECTOR, NATURAL RESOURCES AND ENVIRONMENT, 
                GOVERNMENT ACCOUNTABILITY OFFICE

               STATEMENT OF WILLIAM JONES, PH.D.

    Mr. Jones. Good morning, Chairman Pitts, Ranking Member 
Green, and members of the committee. I am Bill Jones, Deputy 
Director of the Center for Food Safety and Applied Nutrition's 
Office of Food Safety at the Food and Drug Administration. 
Thank you for the opportunity to appear before you today to 
discuss the agency's ongoing efforts to oversee the safety of 
the U.S. seafood supply.
    FDA has had a strong regulatory program in place since the 
mid-1990s to ensure the safety of domestic and imported 
seafood. In fact, the hazard analysis and risk-based preventive 
controls framework of FDA's seafood safety program is a basis 
for the preventive controls requirements for other FDA-
regulated foods, as called for in the FDA Food Safety 
Modernization Act.
    The agency has a variety of tools to ensure compliance with 
seafood safety requirements, including inspections of domestic 
and foreign processing facilities, 100 percent electronic 
screening of all import products, examination and sampling of 
domestic seafood and seafood offered for import into the United 
States, inspections of seafood importers, and foreign country 
program assessments.
    As required by Congress in May 2014, FDA and USDA's Food 
Safety Inspection Service established a memorandum of 
understanding intended to move primary regulatory oversight of 
Siluriformes and Siluriformes products from FDA to FSIS. Since 
that time, FDA has worked closely with FSIS to provide training 
and technical expertise. For example, during the transition, 
FDA provided assistance regarding FDA historical inspection and 
enforcement activities concerning Siluriformes and Siluriformes 
products, guidance and interpretation on FDA's previously 
issued import alerts related to Siluriformes, and lab sampling 
and species identification techniques.
    While FSIS currently has primary regulatory oversight over 
catfish, in my testimony today I will discuss FDA's regulatory 
framework for overseeing the safety of all other fish and 
fishery products, both imported and domestic, emphasizing the 
agency's risk-based efforts.
    Because fish are cold-blooded and live in an aquatic 
environment, fish and fishery products pose food safety 
challenges different from those posed by land animals. FDA has 
developed extensive expertise in these areas over decades of 
regulating seafood.
    Processors of fish and fishery products are subject to 
FDA's Hazard Analysis Critical Control Point, or HACCP, 
regulation. In short, this regulation requires both domestic 
and foreign processors of fish and fishery products to 
understand the food safety hazards associated with their 
process and product and requires a preventive system to control 
for those hazards. Every processor is required to have and 
implement a written HACCP plan whenever a hazard analysis 
reveals one or more food safety hazards reasonably likely to 
occur.
    Foreign processors who export seafood products to the 
United States must operate in conformance with seafood HACCP 
regulation. In addition, the HACCP regulation requires the 
importers to understand the hazards associated with the 
products they are importing and to take positive steps to 
verify that they obtain shipments from foreign processors who 
comply with the regulations requirements.
    FDA has numerous tools and authorities that enable the 
agency to take appropriate action regarding imported products. 
The agency conducts inspections of foreign food manufacturers, 
and if FDA requests to inspect a foreign facility but is 
refused, FSMA gave the agency the authority to refuse the 
facility's food admission into the United States.
    Besides HACCP inspections of foreign facilities, the agency 
also conducts surveillance of food offered for import at the 
border to check for compliance with U.S. requirements. FDA 
reviews all import entries electronically prior to the products 
being allowed into the country. The agency has implemented an 
automated screening tool, referred to as the PREDICT system, 
which takes into account a variety of risk factors. Based on 
this electronic screening, the agency focuses its inspection 
and sampling resources on those entries with the potential for 
the greatest impact on public health.
    Another key regulatory tool for controlling imported goods 
is the import alert. Import alerts inform FDA field personnel 
that the agency has sufficient evidence or other information 
about a particular product or producer or shipper or importer, 
geographic region, or even entire country to believe that 
future shipments of an imported product may be violative. On 
that basis, FDA field personnel may detain future shipments of 
the article that is being offered for import into the United 
States without physically examining or even testing the 
product.
    The agency has approximately 50 active import alerts that 
identify a seafood product from a firm and/or country based 
upon past violations. In March 2016, FDA provided FSIS a 
complete list of firms that process catfish and are subject to 
detention without physical examination, including under import 
alerts for the presence of unapproved drugs in aquaculture, for 
seafood products contaminated with salmonella, and for 
misbranded seafood.
    In closing, food safety continues to be a top priority for 
FDA. The agency has a strong regulatory program in place for 
seafood products, and FDA will continue to work with our 
domestic and international partners to ensure the safety of 
both domestic and imported seafood.
    Thank you again for the opportunity to appear before you 
today. I would be happy to answer any questions.
    [The prepared statement of Mr. Jones follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
   
    Mr. Pitts. The chair thanks the gentleman and now 
recognizes Mr. Morris, 5 minutes for your summary.

                   STATEMENT OF STEVE MORRIS

    Mr. Morris. Thank you, Chairman Pitts, Ranking Member 
Green, and members of the subcommittee. I appreciate the 
opportunity to be here today.
    Today, I would like to discuss the government's efforts to 
inspect catfish.
    In 2015, catfish accounted for about 4 percent of seafood 
imports to the United States, almost all of it coming from fish 
farms in Vietnam. Domestically, catfish production is 
concentrated in Mississippi and Alabama.
    Catfish, like other food products, can present food safety 
risk from the presence of pathogens or contamination from 
chemicals and drugs. Effective oversight is critically 
important to help ensure that all food, including catfish, is 
safe.
    Since 2007, Federal oversight of food safety has been on 
GAO's list of high-risk areas, largely because of fragmentation 
that has caused inconsistent oversight, ineffective 
coordination, and inefficient use of resources.
    USDA's Food Safety and Inspection Service and the FDA are 
the Nation's two primary food safety agencies. In the 2008 farm 
bill, Congress transferred the responsibility for the 
inspection of catfish from FDA to USDA. FDA would be 
responsible for inspecting all other types of seafood. In 
addition, the Department of Commerce's National Marine 
Fisheries Service would provide fee-for-service inspections of 
seafood processing facilities at their request.
    In May 2012, we reported that USDA's proposed catfish 
inspection program would further fragment responsibility for 
overseeing seafood safety, introduce overlap at additional cost 
to taxpayers, and would likely not enhance the safety of 
catfish.
    Specifically, we identified four areas of concern.
    First, catfish processors would be required to implement 
plans to identify and address food safety hazards similar to 
the ones already in use by FDA. As a result, paperwork 
requirements for catfish processors could increase.
    Second, overlapping inspections might occur. For example, 
facilities that process only catfish could be inspected by two 
agencies, and facilities that process both catfish and other 
seafood could be inspected by three: USDA, FDA, and the 
National Marine Fisheries Service.
    Third, inconsistent oversight of imported seafood could 
result. For example, USDA would require foreign countries to 
demonstrate equivalence to U.S. food safety standards for 
catfish, and FDA would require processors to identify and 
address food safety hazards for all other types of seafood.
    Fourth, additional costs to the government could be 
incurred. For instance, FDA estimated it spent less than 
$700,000 annually to inspect catfish processing facilities, 
while USDA estimated in 2011 that its program would cost $14 
million annually.
    Based on our findings, we suggested that Congress consider 
repealing provisions of the 2008 farm bill assigning USDA 
responsibility for inspecting catfish. Congress did not act on 
our suggestion and in the 2014 farm bill reaffirmed its 
commitment to the transfer.
    USDA has moved forward to implement its catfish inspection 
program and reduced its initial estimate of the program's 
annual costs from $14 million to about $2.6 million. USDA 
acknowledges that the program's actual cost is yet to be 
determined.
    In March 2016, USDA began conducting continuous inspections 
at domestic catfish facilities and in April 2016 began 
selective inspections and testing of catfish imports at U.S. 
ports of entry. USDA reports it has rejected several shipments 
of catfish for containing residues of unapproved drugs. USDA 
plans to fully implement its catfish inspection program by 
September 2017.
    We have an ongoing review examining Federal efforts to 
ensure the safety of imported seafood, including catfish. As 
part of this review, we will review coordination between FDA 
and USDA and how these agencies are leveraging resources to 
conduct seafood oversight. We plan to issue this report in the 
spring of 2017.
    This completes my prepared remarks, and I would be happy to 
answer any questions you have. Thank you.
    [The prepared statement of Mr. Morris follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Mr. Pitts. The chair thanks the gentleman.
    And I will begin the questioning, recognize myself for 5 
minutes for that purpose.
    Dr. Jones, the GAO found that the memorandum of 
understanding between FDA and USDA, ``does not address the 
fundamental problem, which is that the USDA Food Safety and 
Inspection Service catfish program, if implemented, would 
result in duplication of activities and an inefficient use of 
taxpayer funds.''
    Do you agree that the memorandum of understanding does not 
address duplication?
    Mr. Jones. I believe that the memorandum of understanding 
does address duplication, in that it imposes upon us the 
obligation to remain in contact with each other to make sure 
that we are able to identify firms that are under dual 
jurisdiction so that we can avoid duplication of effort 
wherever possible.
    Mr. Pitts. In your testimony, you note the robust expertise 
FDA has regulating food safety. And, prior to this program, 
USDA did not have any experience regulating seafood, correct?
    Mr. Jones. Correct.
    Mr. Pitts. I assume that USDA has learned more since they 
started the catfish inspection program, but USDA is still not 
as well-versed as the FDA. Based on FDA's experience and 
knowledge, is it more appropriate for catfish to be placed back 
in your jurisdiction?
    Mr. Jones. I wouldn't be in a position to say which would 
be more appropriate. That decision remains up here. But we 
would be able to accommodate that program, as we did in the 
past, if called upon to do so.
    Mr. Pitts. Now, the GAO report states that, ``FDA officials 
told us Food Safety and Inspection Service's continuous 
monitoring approach is counter to Hazard Analysis and Critical 
Control Point, HACCP, -based requirements for seafood and not 
based on risk.''
    Would you explain how the USDA continuous monitoring 
approach runs counter to the FDA program?
    Mr. Jones. Well, the goal of our HACCP program is to be a 
little bit more proactive and preventive in the way we regulate 
seafood and make sure that it is safe.
    The inception of that program back in 1997 was for the 
purpose of being more efficient and effective and not relying 
as heavily on inspection in order that we could have a 
multipronged, risk-based approach to prioritizing our 
activities, our sampling, our inspection, and our regulation of 
seafood. And we do believe that that program has been 
incredibly effective.
    Mr. Pitts. How does FDA's risk-based approach determine the 
frequency of FDA-regulated seafood activities?
    Mr. Jones. Well, one example would be--it is often cited 
that we do a minimal number of sampling, but that sampling that 
we do is risk-based, for example. And there is a broad range of 
rates at which that sampling occurs, and risk-based factors 
figure into that.
    So there is surveillance sampling, where, for example, 
sampling of seafood from Canada would occur at a much lower 
rate than the sampling of seafood from Vietnam. And, in fact, 
if we find problems and implement an import alert, the burden 
of that sampling shifts to the importer and rises to 100 
percent for those problem products.
    Mr. Pitts. Well, how does FDA's approach to inspecting 
seafood through the seafood HACCP system ensure consumers have 
safe products?
    Mr. Jones. Well, because it is a risk-based approach and 
because we have a long history of information awareness, 
background on the firms, the processors, the history of 
violative product, and are able to continuously prioritize our 
efforts, we are able to focus on the areas where there are 
problems and address those and put the most efficient use of 
resources to the problem areas.
    Mr. Pitts. So, if Congress were to repeal the USDA catfish 
program, does FDA have the capability to inspect catfish in a 
seamless manner that ensures food safety of catfish?
    Mr. Jones. I am quite sure that, if called upon to do so, 
we would be able to work very closely with our counterparts at 
FSIS to effect a seamless transition and avoid any gaps and to 
be able to reinsert that into our program.
    Mr. Pitts. Thank you.
    Mr. Morris, I have just a half-minute left. In the ``2015 
High-Risk Series: An Update,'' did GAO recommend that Congress 
consider repealing these provisions of the 2008 farm bill?
    Mr. Morris. Yes. That is still our position, yes.
    Mr. Pitts. Yes.
    Did you find that the memorandum of understanding between 
FDA and USDA does not address the fundamental problem, which is 
that the USDA Food Safety Inspection Service catfish program, 
if implemented, would result in duplication of activities or an 
inefficient use of taxpayer funds?
    Mr. Morris. Well, we have an ongoing review looking at the 
coordination between FDA and USDA.
    In terms of the duplication of inspection, it is still the 
case that a catfish processing facility could be inspected by 
USDA but also be inspected by the National Marine Fisheries 
Service, which would conduct inspections upon request on a 
periodic basis.
    Mr. Pitts. My time has expired. Thank you.
    The chair recognizes Mr. Green, 5 minutes for questions.
    Mr. Green. Thank you, Mr. Chairman.
    I would like to thank our witnesses for your testimony 
today and have a number of questions for Mr. Jones about 
catfish and the industry itself.
    How many domestic seafood firms process both catfish and 
other seafood and are therefore now subject to both FDA and 
USDA oversight?
    Mr. Jones. I know that there are quite a few, but I don't 
have a number for you at this point.
    Mr. Green. If you could just get some amount, because, 
obviously, that would show the duplicate effort instead of 
expanding it.
    In the proposed rule USDA published to establish its 
catfish program, the Food Safety and Inspection Division stated 
that catfish is a low-risk food. Does FDA agree with this 
assessment?
    Mr. Jones. That would be our assessment as well. It is 
never eaten raw, and it is not usually a ready-to-eat product, 
and we rarely see illnesses that can be attributed to catfish.
    Mr. Green. OK.
    The FDA has a long history of ensuring the safety of all 
seafood products. Mr. Jones, you testified that the FDA's 
seafood risk program--and, in particular, I am interested in 
learning about the FDA's risk-based approach, which identifies 
and prevents hazards, better protects the American food supply.
    Can you explain the benefits of the FDA HACCP program that 
focuses on prevention as compared to the program that relies 
solely on spot checks of finished seafood?
    First, you do have inspectors on the docks, I know, at the 
Port of Houston and also at our border with Mexico, because I 
have met those. Sometimes they will come from Laredo to Houston 
and go back. But how often do you do the spot checks?
    Mr. Jones. The spot checks are conducted routinely. They 
are exactly that, spot checks, so it is hard to put a number on 
them. But they are conducted at all ports of entry, and it is 
an ongoing thing.
    Mr. Green. OK.
    And the other part of it, you have your risk prevention as 
a compared program. So you have spot checks along with the 
analysis of the risk prevention, looking at where those 
particular products are coming from.
    Mr. Jones. That is right. In fact, the whole purpose of the 
surveillance sampling is to try and identify areas where we 
need to focus our efforts.
    Mr. Green. OK.
    Is that true for both domestic and foreign producers of 
seafood? Are they subject to the same regulatory regimen?
    Mr. Jones. Absolutely. The foreign firms are required to 
meet all of our requirements, and their importers are required 
to verify that they do.
    Mr. Green. Given the FDA's long history of regulating 
catfish and other food, do you anticipate the agency would be 
able to handle the responsibility if the authority over catfish 
were returned to the FDA?
    Mr. Jones. Yes. I anticipate that would not be a problem 
for us.
    Mr. Green. Thank you. And it is reassuring to hear about 
the FDA's program, which Congress used as a model when we 
drafted the Food Safety Modernization Act that expanded that 
risk requirement to all food under FDA's jurisdiction.
    And I will yield back my time.
    Mr. Pitts. The chair thanks the gentleman and now 
recognizes the chair emeritus of the full committee, Mr. 
Barton, 5 minutes for questions.
    Mr. Barton. Thank you, Mr. Chairman. And I can tell you, we 
are going to miss you next year. I would assume that this is 
your last chairmanship hearing.
    Mr. Pitts. This is the last.
    Mr. Barton. It shows your dedication to duty that you are 
holding a hearing on catfish, which in all probability are only 
eaten in your district, certainly not grown. We appreciate your 
service.
    Mr. Pitts. Thank you.
    Mr. Barton. Gentlemen, I am not an expert on catfish. Mr. 
Harper of Mississippi is probably our catfish expert, I would 
assume. So my questions are going to be fairly basic.
    How many States in the Union have catfish commercial 
production? It is not a trick question.
    Mr. Morris. There are four primary States: Mississippi, 
Alabama, Arkansas, Louisiana.
    Mr. Barton. OK.
    Mr. Morris. Four key states.
    Mr. Barton. And how many nations export catfish to the 
United States?
    Mr. Morris. Currently, there are 10 countries that have 
provided documentation and comply with requirements to allow 
exports into the U.S., Vietnam being the largest exporter.
    Mr. Barton. Do you know what are the top two or three 
besides----
    Mr. Morris. Vietnam would cover about 90 percent of that; 
China and Taiwan----
    Mr. Barton. OK.
    Mr. Morris [continuing]. Are the top three.
    Mr. Barton. So Asian countries.
    So we have 10 nations that export to the United States, and 
we have four states that produce it. Is there any reason to 
believe that those four states couldn't guarantee the safety of 
the catfish eaten in their states? Why do we need a Federal 
program?
    Mr. Jones. Well, I would say that the main reason for that 
is that a great deal of this product is in interstate commerce, 
so there is an obligation for us to ensure the safety of that 
product.
    Mr. Barton. So you don't think the great State of 
Mississippi or Alabama or Arkansas or Louisiana or Texas could 
guarantee the other 46 states that the catfish that we grow is 
safe to eat?
    Mr. Jones. I wouldn't doubt their capabilities at all, but 
it is a statutory requirement, and we do have the obligation to 
oversee product that is in interstate commerce.
    Mr. Barton. Well, I understand that, but we have a 
President-elect who has decided that it is time to change the 
status quo. And I believe I could trust Mr. Harper and the 
State of Mississippi to guarantee the catfish I eat, if it is 
not in Texas, if I don't catch it myself, is safe for me to 
eat.
    I do understand on the foreign side you have to have some 
standard on imported product. But if it is Vietnam, Taiwan, and 
China, I believe we could just say, if we ever catch you doing 
something bad, we are going to close our market. I mean----
    Mr. Jones. Well, my response to that would be that that is 
effectively what we achieve through our import alert program. 
When we identify a problem, those products are stopped and they 
are checked 100 percent.
    Mr. Barton. Which is the bigger problem, if there is a 
significant problem? Is it imported catfish or domestic 
catfish? I mean, how often do you really see somebody trying to 
provide tainted catfish?
    Mr. Jones. Well, we do----
    Mr. Barton. I know it happened, because----
    Mr. Jones. We do, in fact, occasionally find HACCP 
violations at domestic firms and have issued warning letters at 
domestic firms. What we have not found in domestic product is 
residues of unapproved drugs. We do find those in some imported 
products. And that is the reason for our----
    Mr. Barton. So the primary problem is the imported catfish. 
Would that be safe to say?
    Mr. Jones. I am not sure if I would characterize it as a 
problem. It is something that we are very vigilant about and 
are on top of. And, as I mentioned earlier, we have rarely, if 
ever, seen illnesses attributed to catfish, foreign or 
domestic.
    Mr. Barton. OK.
    Well, I know our committee has a vested interest in your 
agency because we have jurisdiction over the Food and Drug 
Administration and we have limited jurisdiction over the United 
States Department of Agriculture. So you have probably got more 
allies in this room for FDA regulation than USDA regulation.
    But if you look at it in the overall scope of what the 
mission statement of the FDA is, I wouldn't think catfish 
protection would be in the top 10. I believe new drug 
development and all of the cures for cancer that Chairman Upton 
and Chairman Pitts just worked so hard--and Mr. Pallone--to 
pass the 21st Century Cures bill would probably be a little bit 
higher priority.
    So my time has expired, Mr. Chairman. I am not real sure 
where we are going with this. If I am still here, I will listen 
to Mr. Harper, because I have a feeling he is the one who has 
the real essence of the issue here. But I will certainly work 
with the committee if this is something we need to take action 
on.
    And I appreciate you gentlemen's testimony.
    Thank you, Mr. Chairman.
    Mr. Pitts. The chair thanks the gentleman and now 
recognizes the ranking member of the full committee, Mr. 
Pallone, 5 minutes for questions.
    Mr. Pallone. Thank you, Mr. Chairman.
    I wanted to ask Mr. Jones a few questions.
    We heard a lot about the benefits of FDA's HACCP program. 
However, I am also interested in learning more about other 
aspects of FDA's risk-based approach to seafood inspection. 
First, how does FDA prioritize what seafood processors or 
importers to inspect?
    Mr. Jones. Well, we do have electronic review of all 
entries, and we have factors included in that review that 
include things such as firm and product history, inherent 
product risk, processing risks, facility inspection history, 
sample analysis results. And we also have a team of people that 
reviews and prioritizes that information and makes selections 
for those priorities based on current events.
    Mr. Pallone. And can you describe how FDA's new authority 
under the Food Safety Modernization Act strengthened the 
agency's ability to protect the seafood that millions of 
Americans eat each day?
    Mr. Jones. Well, in fact, that new authority strengthens it 
in several significant ways.
    It gives us authority to issue mandatory recalls for foods 
so that if a firm were to refuse to conduct a recall when we 
thought it was necessary we could force them to do so.
    We can order administrative detention of any article of 
food if we feel that there is a reason to believe that it is 
either adulterated or misbranded.
    And we also have, through FSMA, the authority to suspend 
the registration of a facility if the agency determines that 
food that is manufactured or processed or held or packed there 
has some reasonable probability of causing harm or even death.
    And we also have authority now that if we request 
inspection of a foreign facility but that inspection is 
refused, we now have the authority to refuse admission of that 
firm's product into the country.
    Mr. Pallone. All right.
    Now, in May, we heard about how USDA's FSIS stopped 
shipments of imported catfish because of illegal drug residues. 
Did FDA take similar action when the agency regulated catfish?
    Mr. Jones. We did, in fact. And I have spoken earlier about 
the import alerts, which is a very effective tool for us. And I 
also mentioned that we worked very closely with FSIS in 
transferring the program to them. In the process of doing so, 
we shared with them all of the information in the import 
alerts, and some of that information covered those firms and 
allowed them to focus their efforts there.
    Mr. Pallone. All right.
    Well, thanks. In my opinion, it is clear from your 
testimony that FDA has a robust food safety system in place 
that is capable of ensuring the safety of all seafood products, 
including catfish. Although I keep saying catfish is seafood, 
which it really isn't, but same thing.
    All right. Thank you so much.
    Thank you, Mr. Chairman.
    Mr. Pitts. The chair thanks the gentleman and now 
recognizes the vice chair of the subcommittee, Mr. Guthrie, 5 
minutes for questions.
    Mr. Guthrie. Thank you very much.
    It is interesting to have our final meeting on catfish. One 
of my dad's first attempts at business was a catfish farm. And 
we put a bunch of catfish about this big, about the size of a 
minnow, in the pond. It rained really hard, the tank broke, and 
they went downstream to the creek on our farm. So there was 
record catfish farming downstream from us, so that was 
interesting.
    But it is serious. It is a great product. I feel like I am 
an aficionado, if you can be, of catfish, so it is something 
that I am interested in.
    So, Dr. Jones, how is your program different than what 
the--I know you have it in your testimony, but I am going to 
let you expand on this. So how is your program different than 
the USDA's Food Safety Inspection Service? How are you 
different from them?
    Mr. Jones. Well, I think the main difference is that we are 
not doing continuous inspection of all of these firms and we 
are not requiring equivalence. We have taken a very different 
approach with all of the other seafood that we regulate.
    It is a multipronged approach, it is risk-based, and it is 
data-driven. And it allows us to focus our efforts to work both 
efficiently and effectively without having to burden firms and 
our own agency with continuous inspection and equivalence 
determinations.
    Mr. Guthrie. So why do you have different approaches then? 
Why do they do it differently, the other agency?
    Mr. Jones. Well, the main thing that we do, through the 
HACCP program, is prioritize our efforts, focus our efforts, 
and take an approach that involves inspections at the docks, 
surveillance sampling, and collection of any manner of data 
having to do with firm history, product history, and relative 
risk ranking of various products, various commodities, and the 
hazards associated with them, so that our efforts are extremely 
focused, and the majority of our resources can be put towards 
the areas where there are known to be specific problems with 
particularly high-risk products.
    Mr. Guthrie. OK.
    And so is the FDA equipped to inspect and incorporate 
catfish back into your program if the FSIS program is repealed?
    Mr. Jones. If we were called upon to do so, we would put it 
back where it was before.
    Mr. Guthrie. Great. Thanks.
    And, Mr. Morris, is it true that in the 2015 annual report 
entitled ``Additional Opportunities to Reduce Fragmentation, 
Overlap, and Duplication and Achieve Other Financial Benefits: 
An Update'' that the GAO identified catfish inspection as a 
duplicative program and noted that repealing provisions of the 
2008 farm bill that assigned USDA's Food Safety and Inspection 
Service responsibility for examining and inspecting catfish and 
for creating a catfish inspection program would avoid 
duplication of Federal programs and save taxpayers millions of 
dollars annually without affecting the safety of catfish 
intended for human consumption?
    Mr. Morris. Yes, that is still our position. I would also 
say, though, that, you know, events have moved forward; USDA 
has implemented their program. And we do have an ongoing review 
looking at both the FDA and USDA's program to see how well they 
are doing.
    Mr. Guthrie. OK.
    Thank you, Mr. Chairman. Those are my questions. I yield 
back my time.
    Mr. Pitts. The chair thanks the gentleman and now 
recognizes Dr. Schrader, 5 minutes for questions.
    Mr. Schrader. Thank you very much, Mr. Chairman. Another 
good, bipartisan hearing on a good subject. I want to thank you 
for your leadership over the last few years. It has been a 
pleasure to work on this committee and Energy and Commerce in 
general.
    I don't have a lot of questions, just a few statements for 
the record to help inform the members. I served on the Ag 
Committee prior to coming to Energy and Commerce. And I think 
as has been indicated here, many of you know in the 2008 farm 
bill, without any public testimony or any language from either 
the Senate or the House, considerations of the farm bill, the 
provision that stripped FDA authority for catfish was put in at 
the last minute. A classic case of pork politics--well, catfish 
politics, I guess, here in Washington, D.C.
    And I would like to think we are past that stage. Since 
that time, there have been Members of both sides of the aisle, 
Blue Dog Democrats like myself, Freedom Caucus and other 
Members on the other side, that are really concerned about 
duplication and waste in government. This is probably one of 
the most classic and best-case examples.
    GAO--thank you--has done a very thorough study on this and 
made it very clear. It has been stated again and again that 
catfish is a low-threat food source for America. We don't 
inspect--FDA and, I guess, at this point, USDA to some degree 
inspect. The duplication is indeed there, because we have two 
separate agencies doing fish inspection. We actually have FDA 
wasting time training USDA folks, which is sad.
    So I think this is pretty straightforward. I appreciate the 
opportunity to discuss the issue, draw another light on this. I 
can assure you that the Ag Committee still feels the same way. 
In 2013, the House Ag Committee overwhelmingly passed an ag 
bill that restored jurisdiction, if you will, and does not 
favor this. We have the SJR 28 from the Senate, indicating 
their disapproval of the separation of having these two 
duplicative fish inspection programs.
    So it would be nice to start a new Congress or finish this 
Congress with a good, bipartisan hearing and, hopefully, 
ultimately, a bill to restore FDA's authority over the catfish 
program, reduce waste, and help the taxpayer.
    Thank you, Mr. Chairman.
    Mr. Pitts. The chair thanks the gentleman and now 
recognizes the gentleman from Virginia, Mr. Griffith, 5 minutes 
for questions.
    Mr. Griffith. Thank you very much. I appreciate it.
    I don't know that I really have an interest in who inspects 
the fish other than the economic one.
    Now, Mr. Morris, you indicated that--and the question was 
commercial operations. And you left Virginia out, and I assume 
that you did that because we don't do catfish farming per se. 
But because of bad decisions that our state made, we introduced 
the blue catfish into the James River in the 1970s. And now the 
best way to eliminate it is to eat it--or to at least control 
the numbers. Apparently, this fish lives up to 20 years, can 
grow to 100 pounds.
    Mr. Morris. Wow.
    Mr. Griffith. So, keeping in mind that we are not talking 
about fish farming, you would include Virginia as an area where 
there is a commercial operation, but it is catching it out of 
the river as opposed to fish farming per se.
    Mr. Morris. Yes.
    Mr. Griffith. Now, here is the dilemma that some of our 
folks--and we are going to have a witness on the next panel who 
will talk about this as well--that some of our folks are 
having, and that is, if the inspection process has to be both--
and I will ask both of you to give your thoughts on this. If 
the inspection process has to be two--and I can't say whether 
it ought to be FDA or USDA, but nobody has proposed that USDA 
take over all seafood inspection, so that is why I would have 
to lean towards FDA.
    But if these folks catching the blue catfish out of the 
James River and the Chesapeake Bay--apparently, it is spreading 
now into other parts of the bay--if they are having to be 
inspected by two, both the written testimony of the witness on 
the next panel and Todd Haymore, who wrote a letter on June 3 
out of the Office of the Governor of the Commonwealth of 
Virginia, indicated that there are going to be some businesses 
that just decide they are not going to process or deal with the 
blue catfish because they don't want to be inspected and 
operate under the rules of both the USDA and the FDA and they 
can deal with all the other fishes by just doing one.
    So how do we solve this problem? Because, recognizing Mr. 
Harper, who is sitting in front of me, I have to believe it was 
shifted to the USDA because something wasn't going right at the 
FDA. So how do we solve these problems that the catfish farms 
in Mississippi, et cetera, are having with the problems that it 
will create for Virginia and other states of the Chesapeake Bay 
in trying to eliminate a predatory fish?
    Help me out. How do we thread that needle? Any solutions?
    Mr. Morris. Well, that is a good question. I don't know if 
I have a specific answer to you. But you did mention resources, 
how much the program would cost. I could comment on that.
    In terms of the USDA program, originally they estimated it 
would cost about $14 million a year. They reduced that estimate 
to about $2.6 million. But they have spent $20 million to 
develop the program since 2009, so that is already a sunk cost 
into the program. So just to give you some perspective in terms 
of what is being spent.
    On the FDA side, the estimate would be more in the $700,000 
range, just to give you some perspective.
    Mr. Griffith. Dr. Jones, how do we solve Mr. Harper's 
problem and the problem that apparently arose--or else Congress 
wouldn't have passed something--with the FDA inspecting the 
catfish and my state's problem, where if we have the dual 
inspection we are probably going to greatly hamper commercial 
fishing operations? Which will actually have the benefit of 
cleaning up the Chesapeake Bay in part.
    Mr. Jones. Well, I am not in a position to propose a 
solution to that problem. But, if I could, I would like to 
comment on something you mentioned earlier----
    Mr. Pitts. Please.
    Mr. Jones [continuing]. Which was your belief that this 
transfer of primary authority may have occurred because there 
was some sort of a problem with FDA's seafood inspection 
program. And I just want to go on record as saying that I don't 
believe that to be the case.
    Mr. Griffith. All right. And I appreciate that. And I will 
look into it further. And I suspect Mr. Harper may have some 
comment about that later.
    It is interesting, and it goes to prove we shouldn't be 
just dropping species from one ecosystem into another one 
without thinking it through very, very carefully.
    But just so that you all will know, I represent the western 
part of Virginia, so I don't have what typically people would 
think of as a bay district. However, 3 of my 29 jurisdictions 
are in the Chesapeake Bay watershed, and I have the headwaters 
of the James in my district. So, while the blue catfish haven't 
gotten there yet, when I look at data that indicates they are 
75 percent of the biomass in the James River today because they 
eat everything and squeeze out the others, I am concerned that 
it will hurt some of our tourist industries which deals more 
with the smaller fishes and trouts as you get further up the 
stream at some point in the future. So I am concerned about 
this issue.
    And I appreciate it and yield back.
    Mr. Pitts. The chair thanks the gentleman and now 
recognizes the gentleman from Missouri, Mr. Long, 5 minutes for 
questions.
    Mr. Long. Thank you, Mr. Chairman.
    And, for the record, I just want to say that I went to the 
dictionary a while ago and looked up ``gentleman'' and there 
was your picture. So thank you for all that you have done for 
all of us over all these years, and the best to you in your 
retirement. I enjoyed working with you and hope to in the 
future. I hope we run into you.
    Mr. Morris, in the 2012 GAO report on seafood safety, it 
stated that Federal oversight of food safety is a high-risk 
area, largely because of fragmentation, and that directing the 
food safety inspection program to issue catfish inspection 
regulations further fragments that system.
    Could you discuss what areas within the FSIS inspection 
system would lead to further fragmentation?
    Mr. Morris. Yes, absolutely. Well, in that report, we 
identified basically four areas of concern.
    So the first would be that the FSIS program would require 
processes pretty much to implement requirements that were 
already in place through FDA, so that would be one area of 
inefficiency and duplication.
    Another one would be in the area of overlapping 
inspections. So, for example----
    Mr. Long. That was going to be my next question. Yes.
    Mr. Morris. OK. So, for example, in a facility that would 
process catfish and other seafood, you may have USDA inspecting 
the catfish, you might have FDA inspecting the other seafood, 
and you may have the National Marine Fisheries Service there 
inspecting both. So we noted that as an area of duplication as 
well.
    Also, in terms of the seafood imports, we noted that there 
is inconsistent oversight in seafood. For example, as Bill 
mentioned, FDA would be responsible for all other types of 
seafood, and it would essentially depend on processors to 
identify and address food safety hazards, whereas with the case 
of USDA, they would have to determine foreign equivalence to 
USDA standards.
    So those are some examples of where the duplication would 
occur, and inconsistencies.
    Mr. Long. Well, what are some of the differences in the two 
systems on the inconsistent oversight of imported seafood? What 
are the----
    Mr. Morris. So, for example, USDA would require foreign 
governments to demonstrate equivalence to our standards, so it 
would deal on the government level. FDA would deal with the 
processors and oversee them to ensure that they are identifying 
and addressing any hazards. So it is a different focus.
    Also, in terms of the USDA program for imports, eventually, 
USDA wants to reinspect all of the imports coming in, whereas 
FDA, as Bill mentioned, uses more of a risk-based approach.
    Mr. Long. So how does that affect the overall approach for 
ensuring the safety within our system?
    Mr. Morris. Well, it goes back to what is the identified 
hazard. In the case of USDA, they identified salmonella as the 
primary hazard to catfish, but we found that that hazard was 
pretty much nonexistent.
    Mr. Long. OK. Thank you.
    And, Dr. Jones, FDA continues to exercise oversight of 
dual-jurisdiction establishments that process both catfish and 
other seafood products. Could you discuss the impact this dual 
jurisdiction has on these facilities that process both catfish 
and other seafood? Are you concerned that there would be 
unnecessary overlap within these inspections?
    Mr. Jones. Well, it is part of our arrangement with FSIS to 
work closely on that, and I am not in a position to say 
anything to disparage the work that they do in concert with us.
    Mr. Long. OK.
    The FDA has the authority to undertake systems recognition 
assessments to determine whether a foreign food safety system 
is compatible to the U.S. food safety system. Could you discuss 
this process and how it affects the FDA's overall primary 
oversight?
    Mr. Jones. Absolutely. It is something that we have been 
working on for several years now. In a sense, it offers an 
alternative to equivalence.
    Equivalence determinations are an extraordinarily 
cumbersome prospect. Things are done in different ways, and so 
you can't find things that are different to be equivalent very 
easily. However, you can find them to deliver equivalent levels 
of food safety, to provide same outcomes.
    And so what our process for determining that comparability 
of systems is is to look at the food safety programs that 
others country have in place and evaluate them against ours to 
see if the outcomes are the same.
    Mr. Long. OK. Thank you.
    And after my trip to the dictionary, it gives new meaning 
to saying that I yield back to the ``gentleman'' from 
Pennsylvania.
    Mr. Pitts. The chair thanks the gentleman and recognizes 
Dr. Bucshon, 5 minutes for questions.
    Mr. Bucshon. Thanks, Mr. Chairman.
    I don't have too much to add, but I am just curious about 
how the inspection process works in general. How do you 
determine, when you are doing spot checks, what constitutes a 
representative sample that gives you an idea of the overall 
content of the product coming into the United States?
    Mr. Jones. Well, it is an ongoing process, so it doesn't 
occur in one set of sampling. So the sampling is taken as a 
whole over a period of years, and we evaluate that sampling on 
an ongoing basis, and we adjust it accordingly. So you don't 
have a fixed set of a certain number of samples of a certain 
kind of product from a certain place. It changes routinely, and 
when we start to see a problem, we increase that sampling 
dramatically to understand the scope of that problem.
    And some potential outcomes of that goes back to something 
I discussed earlier, import alerts. In some cases, we have 
found that there are individual firms that have problems and 
need to be on import alerts. And in other cases, we have found 
that the problem is pervasive enough to encompass an entire 
geographic region, and in yet other examples, it is an entire 
country. And we use that sampling to target those resources and 
identify the scope of the problem.
    Mr. Bucshon. OK. So it is a directed sample. It is not like 
for every 10,000 catfish that come in you sample a certain 
percentage. Because there is a way to statistically analyze, 
right----
    Mr. Jones. Yes.
    Mr. Bucshon [continuing]. What a representative sample 
would be? But what you are saying is not only do you do that, 
but you also look at other variables like where the origin of 
the product comes from and if they have had previous problems.
    Mr. James. That is exactly right. We do both.
    An example of the kind of sampling you were originally 
discussing would be when we are sampling for histamine in fish 
that could be partially decomposed. That would be a 
statistically significant sampling for a particular shipment.
    Mr. Bucshon. OK.
    Thank you, Mr. Chairman. I yield back.
    Mr. Pitts. The chair thanks the gentleman and now 
recognizes the gentlelady from Tennessee, Mrs. Blackburn, 5 
minutes for questions.
    Mrs. Blackburn. Thank you, Mr. Chairman. And I join others 
in saying we are really going to miss you. I know you are 
looking forward to some good time and some good travel out and 
about and some teaching in the classroom, but we are going to 
miss you here. So we do wish you and Ginny well.
    I have to tell you, some of my college buddies were real 
excited that we were doing that hearing, because I want to 
Mississippi State University and they know a lot about catfish.
    And I am one of those kiddos that grew up on a farm that 
had a catfish pond. Now, Mr. Guthrie talked about how theirs 
kind of broke apart and spilled out. Ours stayed in place, but 
I can tell you those catfish were talented. They could hear my 
dad walking down there to the pond to spread the catfish food, 
and by the time he got there, they were jumping out of the 
water and ready to be fed.
    So this is a fun hearing for us to do.
    Mr. Jones, I just want to ask you--we have talked about the 
economics, we have talked about duplications. Is there a public 
health need to have two separate inspection programs? Is there 
a justification from a public health point of view?
    Mr. Jones. Our assessment of that, in fact, aligned with 
FSIS's assessment, that catfish is, in fact, a low-risk food 
and certainly would not be in the higher list of priorities 
within our program.
    Mrs. Blackburn. OK. So, in your opinion, there would be no 
public health need for duplicative programs----
    Mr. Jones. Well, I would say----
    Mrs. Blackburn [continuing]. Or two programs or separated 
duties.
    Mr. Jones. I would say that it is low-risk with regard to 
imminent health risk. I can't comment on the duplication of 
authorities, but I can comment on the idea that it is essential 
that catfish be sampled----
    Mrs. Blackburn. Sure.
    Mr. Jones [continuing]. And be monitored and be regulated, 
especially----
    Mrs. Blackburn. I think we all agree with that.
    Mr. Jones [continuing]. With regard to unapproved drug----
    Mrs. Blackburn. Yes.
    Mr. Morris, do you think the farm bill provision--should 
that be revisited and repealed, do you think?
    Mr. Morris. Yes. We have been on record to say that is the 
case, and we are still on record to say that.
    Mrs. Blackburn. To simplify it. Well, OK. I think that 
sounds good.
    We are all concerned about saving taxpayer dollars. We are 
concerned about public safety. We know if you do it right the 
first time, when it comes to food and food inspections, that 
you don't have the expense of contaminated product in the 
pipeline. Also, programs that run efficiently are going to do a 
better job of monitoring the product that they are to be 
monitoring.
    And Mr. Morris, we see this repeatedly in reports that you 
all give us. The streamlining of fish and sea sometimes brings 
things more into focus. So that is a part of what we want to 
do.
    But, with that, Mr. Chairman, I am going to yield back and 
thank you for the hearing.
    Mr. Pitts. The chair thanks the gentlelady and now 
recognizes the gentleman from Mississippi, Mr. Harper, 5 
minutes for questions.
    Mr. Harper. Thank you, Mr. Chairman.
    And, Mr. Morris, you testified earlier almost like this was 
a Mississippi and Alabama issue, and then you expanded it to a 
few more states. But, according to USDA, there are at least 
nine states who participated in a catfish farm survey. Those 
States were Alabama, Arkansas, California, Georgia, Louisiana, 
Mississippi, Missouri, North Carolina, and Texas.
    So it is much more than just Mississippi and Alabama, you 
would agree, in that situation?
    Mr. Morris. Sure.
    Mr. Harper. And when we look at this--and, Dr. Jones, there 
is no duplicative activity. FDA doesn't inspect anymore, 
correct?
    Mr. Jones. Correct.
    Mr. Harper. So we are only talking about one program. And 
you would agree that if this was transferred back from USDA to 
FDA there would be costs for FDA to do that inspection, 
correct?
    Mr. Jones. I couldn't necessarily identify what those costs 
would be. It would be integrated into part of a much larger 
program.
    Mr. Harper. But there would have to be additional people, 
and those folks who would be doing--what was the previous cost 
when you were doing farm-raised catfish inspections?
    Mr. Jones. We never looked to see what specifically farm-
raised catfish alone would have cost. I don't know if we could 
get you those numbers.
    Mr. Harper. Well, we have talked, and Mr. Morris has used 
the figure of $14 million several times as an estimate. Why do 
we keep using that figure when that was an estimate and is 
actually not accurate and the cost now is about, what, $2.6 
million, which is estimated to be about $1.4 million more than 
maybe what FDA projected?
    But I want to point out--this was earlier in the year, back 
in probably July. This program, USDA's FSIS program, one 
example, stopped more than 40,000 pounds of unsafe catfish 
products that were coming in from Vietnam. The shipment tested 
positive for malachite green, which is a drug that could have 
possible carcinogenic effects. That was caught.
    Now, if it is low-risk and not considered a priority in 
FDA, if FDA had it, that is not something you would catch in 
your 100 percent electronic testing, correct? Because you are 
not sampling 100 percent. Is that a fair statement?
    Mr. Jones. Actually, it wouldn't have been caught through 
surveillance sampling, necessarily, for that particular 
shipment, but it would have been on an import alert and would 
have been stopped, and it would not have been allowed entry 
without having been tested.
    Mr. Harper. All right. That is your belief, but you are not 
capturing everything that comes in. Because you don't 
personally inspect, even on the seafood that comes in now, 
everything. Is that a fair statement?
    Mr. Jones. No, we do not inspect everything. That is the 
purpose of HACCP, to avoid having to inspect everything and 
eliminating good food from the food supply.
    Mr. Harper. The main point being here that we only have one 
program right now for farm-raised catfish inspection, and that 
is through USDA.
    And would it be fair to say, Mr. Morris, that until there 
has been enough time--because this started in officially April 
of this year--you can't do a GAO study right now. You would 
delay a little bit to see the effectiveness of a program. Is 
that a fair statement?
    Mr. Morris. Well, we are taking a look at the ongoing 
implementation. It is a phased-in implementation over about a 
year-and-a-half period. So we are taking a look at that.
    Mr. Harper. Sure, to be up, fully operational. And you will 
look at that. And if you get to the end of this, the full 
implementation, and your studies show, you know, maybe I didn't 
agree with this at the beginning but it is working now, it is 
possible you might have a different opinion at that point.
    Mr. Morris. Well, we will take a look at the results, and 
that would inform our position.
    Mr. Harper. You would be fair----
    Mr. Morris. Sure.
    Mr. Harper [continuing]. As to look at it.
    Mr. Morris. Sure.
    Mr. Harper. OK.
    Other examples we have had of shipments coming in, I know 
that in May of this year a shipper from China refused to let 
FSIS inspect, and they turned around and went back. Now, why 
would they have done that?
    So we are showing many examples of things that are showing 
that the program is working at this point in time. And the real 
issue here is about food safety. And so it may be something 
that is considered a low risk, but if families in this country 
are eating farm-raised catfish, we want to make sure that it is 
safe for that family. It is a high risk if you are eating 
something that is contaminated.
    So I believe we have to give this an opportunity, that we 
don't need to reopen the farm bill on this issue. It has been 
decided not once but twice. Let's give this program the 
opportunity to be successful, and then let's discuss it.
    So, with that, I thank you, Mr. Chairman, and I yield back.
    Mr. Pitts. The chair thanks the gentleman.
    That concludes the questions of the members present. We 
will send followup questions and written questions from any 
members who are not here to you, ask that you would please 
respond to those.
    Thank you very much for your testimony today.
    We will now go to our second panel.
    On our second panel, we have--and I will introduce them in 
the order of their presentation: Kim Gorton, President and CEO 
of Slade Gorton & Company, Inc.; Bart Farrell, Director of food 
and beverage, Clyde's Restaurant Group; Justin Conrad, CEO, Bay 
Hill Seafood, President, Libby Hill Seafood; and Steve Otwell, 
Seafood Safety and Technology Emeritus, UF Food Science and 
Human Nutrition, Aquatic Food Products Lab, University of 
Florida.
    I will ask the witnesses to take their seats.
    As usual, your written testimony will be made a part of the 
record. You will each be recognized for 5 minutes to summarize. 
Welcome.
    And the chair recognizes Ms. Gorton, 5 minutes for her 
summary.

  STATEMENTS OF KIM GORTON, PRESIDENT AND CEO, SLADE GORTON & 
CO., INC.; BART FARRELL, DIRECTOR OF FOOD AND BEVERAGE, CLYDE'S 
    RESTAURANT GROUP; JUSTIN CONRAD, CEO, BAY HILL SEAFOOD, 
PRESIDENT, LIBBY HILL SEAFOOD; AND STEVE OTWELL, SEAFOOD SAFETY 
 AND TECHNOLOGY EMERITUS, UF FOOD SCIENCE AND HUMAN NUTRITION, 
        AQUATIC FOOD PRODUCTS LAB, UNIVERSITY OF FLORIDA

                    STATEMENT OF KIM GORTON

    Ms. Gorton. Mr. Chairman, ranking member, and members of 
the subcommittee, my name is Kim Gorton, and I am President and 
CEO of Slade Gorton.
    My company is a third-generation family business with 
operations across the country. We are one of America's largest 
distributors and manufacturers of fresh, frozen, and premium 
value-added seafood products. We provide over 200 million 
seafood meals to Americans every year.
    Regarding catfish, we buy and sell roughly equal amounts of 
domestic catfish and imported catfish and pangasius. So I am 
coming at this issue with a balanced portfolio and an overall 
interest in feeding Americans with healthy and safe food.
    Until recently, the FDA regulated all seafood using the 
Hazard Analysis Critical Control Point program, or HACCP, as we 
call it, for both domestic and imported seafood. HACCP requires 
any problems to be identified and eliminated or mitigated at 
their source. For imported seafood, that means problems must be 
fixed thousands of miles from the U.S. border.
    As someone with decades of firsthand experience in the 
American seafood industry, I can say that this program works. 
The seafood Americans enjoy is safe. That is to the credit of 
this committee for the laws you wrote, to the FDA for its 
enforcement of regulations, and to the private sector for its 
implementation. In nearly 90 years, my company has had no food 
safety violations for products we produce whatsoever.
    I also strongly oppose the USDA's catfish inspection 
program. It is a duplicative burden that will not improve 
public health. To suggest that my company does not now have two 
sets of seafood regulations to follow, where one did the job 
before, is just plain wrong.
    Supporters of this program point to a 2014 MOU between FDA 
and USDA and claim that it addresses the duplication concerns. 
This MOU only commits the agencies to create a list of 
facilities that are subject to USDA and FDA regulations. How 
does a list reduce my burden and my costs? The reality for my 
small business is that we will still have two sets of 
regulations to meet and two sets of regulators to deal with.
    And to answer a previous question about how many companies 
process both imported catfish and pangasius as well as 
domestic, the answer is thousands of companies here in the 
United States.
    So moving this one type of fish over to a separate 
regulator has also caused other problems. We at Slade Gorton 
process a good deal of fresh seafood in our plants, including 
domestic catfish, a product that is highly perishable and needs 
to move through the supply chain in an expeditious manner. We 
now must schedule a USDA inspector 2 weeks in advance of 
processing and packing catfish. Most of our customers place 
their orders up to 8 hours in advance.
    The result? We are unable to fill customers' orders for 
catfish with any consistency, so we have begun to focus on 
other species. So have our customers. That out-of-touch 
regulatory burden is not going to grow seafood consumption, my 
business, or our economy, and it is what makes Americans so 
frustrated with our government.
    Pangasius, the fish targeted by supporters of the USDA 
program, provides roughly 1.3 billion meals each year for 
American families. These are meals that lower- and middle-
income families, such as a single mother of two in Lancaster, 
Pennsylvania, can afford. This is not a fish to replace lobster 
and caviar. So how is a law that eliminates more than 1.3 
billion affordable meals fair to the average American who w 
ants to feed her family with healthy food?
    Here in the U.S., we are working to combat any number of 
health-related challenges such as obesity, heart disease, and 
mental illness. Now, more than ever, Americans are focused on a 
more healthful lifestyle and are turning to seafood, and public 
health officials are encouraging Americans to eat more seafood. 
So is this a good public policy, to take away the choice of 
this fish, which represents 29 percent of the value white fish 
in the market, and to have seafood prices increase 
dramatically?
    Domestic catfish sells for $5.40 a pound, and pangasius, 
$1.95 a pound. My customers will not shift from pangasius to 
domestic catfish. They are two different markets. They will 
just skip buying any of it. This means lower sales for my 
company, which could mean I have to cut my workforce.
    If catfish was a health risk, I could understand this 
program, yet both the CDC and USDA have cited catfish as a low-
risk food. USDA's own risk assessment suggested they did not 
believe USDA oversight would improve public safety, stating the 
effectiveness of the USDA regulation of catfish was unknown.
    This program could place American farm exports at risk, as 
some of the nations that sell us their fish have made it clear 
that they will retaliate against American farm products when 
they win the trade dispute over pangasius.
    I want to end with a visual. This fish is regulated by FDA. 
This fish is regulated by FDA. This crab is regulated by FDA. I 
could bring out 98 more species that are regulated by FDA. This 
product is going to be regulated by USDA, if we don't overturn 
this.
    So, in hearing promises from Congress that they want to 
free small businesses of burdensome regulations, on Sunday, 
Speaker Ryan, in an interview on ``60 Minutes,'' called for 
elimination of wasteful and unnecessary regulations. I hear 
promises and commitments; I see no action or accountability.
    So there is a Senate-passed bill that has the support of 
this committee and more than half of the House of 
Representatives, the People's House. It is time to move from 
promises to small business to action for small businesses. 
Please urge the House leadership to call up the Senate bill to 
repeal this ridiculous program.
    Thank you.
    [The prepared statement of Ms. Gorton follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        
    Mr. Pitts. The chair thanks the gentlelady.
    Mr. Farrell, you are recognized, 5 minutes for your 
summary.

                   STATEMENT OF BART FARRELL

    Mr. Farrell. Mr. Chairman and subcommittee members, my name 
is Bart Farrell. I am the director of food and beverage for the 
Clyde's Restaurant Group. We are a local, privately owned 
company with 14 restaurants in Washington, D.C., Maryland, and 
northern Virginia. We employ 2,300 people, and hopefully you 
have enjoyed a meal at the Old Ebbitt Grill, the Hamilton, or 
the 1789 in Georgetown.
    I am speaking today from both the Clyde's perspective but 
also as a leader of more than 100 local chefs who have 
expressed support for eliminating the USDA catfish program. We 
do so because the program threatens an important new fishery 
that can help save the Chesapeake Bay.
    Several years ago, our supplier, aptly named Congressional 
Seafood, introduced us to the Chesapeake Bay wild blue catfish. 
It is relatively inexpensive as seafood items go, but with a 
scary backstory.
    These fish were introduced into the James River in the 
1970s as a sport fish for recreational fishermen. 
Unfortunately, these are apex predators with no known predators 
of their own. They are taking over the Chesapeake Bay and 
beyond. According to NOAA, these fish now account for a 
staggering 75 percent of the biomass in the James and 
Rappahannock Rivers and are increasing in population in many of 
the rivers and tributaries in the bay. They are consuming the 
bay's native fisheries, including rockfish, also known as 
striped bass, blue crabs, white perch, shad, and herring.
    According to the Chesapeake Bay Foundation, one of the 
primary ways to reduce the population of these blue catfish and 
ensure the survival of the native fisheries is to establish and 
grow a commercial fishery for blue catfish. And that is what 
our suppliers and others have started to do.
    These fish are becoming more and more popular at Clyde's 
and other restaurants. Our staff are educated on this evasive 
species, and our customers enjoy eating a quality, good-tasting 
fish and have a sense of civic pride in doing their part to 
help save the bay.
    Let me briefly explain how this tasty fish gets from water 
to your plate around here. Watermen in the Chesapeake Bay 
region, North Carolina, or Delaware catch the fish. Processors 
cut the fish into fillets that chefs like. Distributors send 
the fish to retailers or restaurants. And consumers order the 
fish at restaurants or buy at shops and take home to cook. Each 
of these steps is essential to getting the fish to market. A 
break in any step will eliminate the market.
    I am going to share an example of this market from one 
company. In the past 2 years, Murray L. Nixon Fishery of 
Edenton, North Carolina, alone has bought an estimated 2.5 
million pounds of catfish with an estimated value of $1 million 
to the watermen. These numbers have increased over the past 5 
years due to the increase of the blue catfish in their area. 
The catfish processing at Murray L. Nixon Fishery allows this 
small business to keep a local full-time staff of cutters 
working and, in that way, support local labor. That, in turn, 
keeps watermen working.
    The USDA catfish program is requiring our suppliers to 
follow regulations of both the USDA for only catfish and FDA 
for all other seafood that they process. While wild blue 
catfish is good business, it will not justify the significant 
expense of capital and ongoing costs associated with meeting 
USDA's different regulatory requirements. As a result, many 
processors and distributors have indicated that they will leave 
the wild blue catfish business unless regulation of catfish is 
returned to the FDA.
    Such a rational business decision will mean the supply 
chain between local watermen and restaurants will be broken. 
The results will be watermen losing the opportunity to be 
employed throughout the year, restaurants and stores lose the 
ability to sell delicious fish, and, sadly, the Chesapeake Bay 
and rivers will continue to be plagued by this invasive 
species. Who knows how far these fish will spread?
    Attached to my written testimony is a letter signed by more 
than 120 outraged chefs urging Congress to eliminate the USDA 
program. We want to encourage the House to take up the Senate 
bill before you leave and rid us all of this wasteful and 
burdensome program.
    As someone who has spent many hours fishing and hunting on 
the Chesapeake Bay, I trust you will do your part to ensure 
that the bay stays relevant and healthy with all of its native 
species for generations to come. A failure to act will say much 
about Congress' lack of commitment to save the bay, a true 
national treasure.
    Thank you.
    [The prepared statement of Mr. Farrell follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Pitts. The chair thanks the gentleman and now 
recognizes Mr. Conrad, 5 minutes for summary.

                   STATEMENT OF JUSTIN CONRAD

    Mr. Conrad. Mr. Chairman and members of the subcommittee, 
my name is Justin Conrad. I am the president of Libby Hill 
Seafood Restaurants and Bay Hill Seafood Sales, both based in 
Greensboro, North Carolina. I am a proud member of the National 
Restaurant Association, an organization my father, Ken Conrad, 
proudly served as chairman.
    My grandfather started Libby Hill in 1953. Our third-
generation company is the kind of small business that 
politicians like to talk about when they say they want to grow 
the economy. We employ roughly 150 people in North Carolina.
    The FDA's HACCP system works for our seafood distribution 
and restaurant businesses. Through the years, my family has 
served millions of meals. We have never had a food safety 
incident.
    So if we have never had a problem and FDA is our regulator, 
what exact problem was Congress trying to solve when it shifted 
regulation of catfish from FDA to USDA in 2008? I can tell you 
this: It was not about food safety.
    The catfish program is a caricature of all things that 
upset the average American about Washington. It wastes taxpayer 
dollars. USDA will spend $14 million to inspect fish FDA 
effectively inspected for $700,000. It has been cited as a 
waste by the GAO 10 times since 2011. This program does not 
improve food safety. Catfish, both imported and domestic, is a 
low-risk food.
    Our suppliers, though, must now have one food safety system 
to meet FDA's regulation for pollock, flounder, shrimp, and 
other seafood items they provide and a second system for USDA. 
How can Congress claim that requiring us to have two regulatory 
systems to oversee the same plant is not duplicative or a 
burden to small business?
    The catfish program requires my suppliers to gain USDA 
inspectors' blessing for their operating schedule 2 weeks in 
advance. Think about that. They cannot process fish without 
Federal approval of a private company's work schedule and 
having an inspector there. They need special dispensation to 
work over the weekend. Restaurants do not work on a Monday-
through-Friday schedule.
    How is our economy supposed to grow when a private company 
must seek Federal Government approval for its operating 
schedule 336 hours in advance? Those of us who believe in a 
free market relish competition. By contrast, crony capitalists 
seek to use rules to prevent competition. The USDA program is 
one such of those programs. It will eliminate all imported 
competition and most domestic competition. How can Congress 
favor a program that destroys small business in favor of two to 
three large companies that can afford the capital cost of USDA 
regulation?
    This catfish program will only increase the cost of food 
for American families. Pangasius today is the sixth most 
popular seafood item Americans enjoy. It represents about 29 
percent of value white fish that restaurants and retailers 
offer. Basic economics say if you eliminate 29 percent of a 
supply, prices will rise sharply. How can Congress tell an 
American family that it established a program that will not 
improve their health but it will cost them more when they try 
to enjoy a fish meal at Libby Hill restaurants?
    There is an increasing concerning that the catfish program 
will set a dangerous precedent of moving other seafood species 
from FDA to USDA. Catfish farmers have publicly stated tilapia 
should be subject to this burden. I heard from a colleague that 
USDA investigation and enforcement agents came to their office 
on Monday and warned them they must register with the USDA for 
their tilapia imports. This is a company that does not import 
or process catfish, and yet they have USDA agents flashing 
their badges and telling them to register with the USDA for 
tilapia.
    I also understand that some shrimp companies have already 
requested to be added to the program. This will destroy the 
shrimp industry in North Carolina. I have personally been told 
by members of the shrimping community in North Carolina that, 
rather than be saddled by additional regulations from a new 
government agency, they would opt to close their doors.
    How does this help local seafood markets, restaurants, and 
workers who depend on these products to support their families? 
Unless the House acts now to reverse this awful policy, some 
Members of Congress will work to remove FDA from seafood 
altogether.
    A tip of the hat to the Senate for passing S.J. Resolution 
28 and to many of you for recognizing the opportunity to save 
small business from the onus of another regulatory burden. It 
is my sincerest hope that you can persuade House leadership to 
bring this resolution to a vote before you go home for 
Christmas.
    Thank you.
    [The prepared statement of Mr. Conrad follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    Mr. Pitts. The chair thanks the gentleman and now 
recognizes Dr. Otwell, 5 minutes for his summary.

                   STATEMENT OF STEVE OTWELL

    Mr. Otwell. Chairman Pitt and members of the subcommittee, 
I thank you for the opportunity to share my views on what I 
consider an unnecessary USDA catfish inspection program.
    My name is Dr. Steve Otwell. I am an emeritus professor 
from the Food Science and Human Nutrition Department at the 
University of Florida. I retired there in the year 2014 after 
serving 23 years at the university, working on all aspects of 
seafood safety and quality both through research and training. 
During this time, I served on three National Academy of 
Sciences committees which advised congressional decisions on 
programs for seafood safety in our Nation.
    I currently in my retirement am director of something known 
as the Seafood HACCP Alliance, which now includes a cadre of 
over 400 qualified instructors working in the field to advance 
FDA's proven HACCP approach for seafood safety.
    As someone who has been on the front line of seafood 
safety, I can attest that the USDA regulation of catfish is 
unnecessary and, from a public health perspective, is an 
unjustified use of government resources.
    It is a fact that farm-raised catfish from both domestic 
and international sources do not pose a significant or unique 
food safety burden that warrants additional or different 
Federal regulation. A review of documented illnesses in the 
United States reveal that fish, including catfish, is one the 
safest sources of muscle protein consumed in the United States 
and catfish is one of the safest fish selections.
    Foodborne illnesses reported to the Centers for Disease 
Control since 1998 show that only one confirmed outbreak has 
been associated with the catfish product, and this was not a 
processing error. That is one outbreak out of 19,000 food 
outbreaks that have been reported over 17 years. That is a 
0.005 percent occurrence of outbreaks over almost two decades.
    In addition, the CDC has found that the outbreaks of 
foodborne illnesses attributable to fish consumed in the United 
States has significantly declined. Sixty-five outbreaks 
occurred in the years 1998 through 2004, whereas there were 
only 32 outbreaks during the years 2005 and 2012. The CDC 
report cited that HACCP principles mandated by FDA are the 
primary reason for this pattern. This was the same period when 
HACCP became implemented in the United States and, likewise, 
the same period when catfish consumption in the United States 
began to escalate.
    The prevailing concern for imported catfish has been misuse 
of antibiotics. While the use of any unapproved drugs is indeed 
unacceptable, this challenge is not unique to imported catfish. 
FDA regulation and education efforts, aligned with the State 
authorities and cooperating nations, have made a significant 
impact in reducing the use of unapproved drugs over the last 
decade. And this trend will indeed continue to increase with 
the growing dependence on farm-raised product.
    The preventative controls structure of FDA's HACCP program 
has indeed recently been used as a model for many rules under 
the Food Safety Modernization Act. Likewise, the U.S. 
Department of Agriculture used the FDA HACCP protocol in 
modeling some of their approaches.
    In addition, since 1995, the Seafood HACCP Alliance 
education and training program has maintained one of the most 
highly recognized and copied seafood safety education programs 
in the world. This training program is certified by the 
Association of Food and Drug Officials, which represents the 
food safety authorities in every State of our Nation.
    To date, over 45,000 seafood inspectors, plant workers, and 
quality assurance managers have been trained through this 
program through every State, every U.S. territory, and all 
nations exporting seafood to the United States. Training 
included over 90 percent of the catfish processing operations 
in the United States.
    Concluding, the FDA's HACCP program has a long and 
impressive record of keeping Americans and the seafood we love 
safe. Changing regulations for the sake of changing, without an 
actual food safety benefit, unnecessarily fractures the system, 
and, ironically, it makes the products less safe. The cost of 
food safety man-hours and focus required to comply with two 
separate regulations by separate Federal authorities in one 
facility can have unintended yet very real consequences that we 
should not ignore.
    Thank you for your time.
    [The prepared statement of Mr. Otwell follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
        
    Mr. Pitts. The chair thanks the gentleman.
    That concludes the opening statements. We will now go to 
questioning. I will recognize myself for 5 minutes for that 
purpose.
    Let me just ask all of you a couple of questions, and we 
will start with Ms. Gorton.
    Was this USDA program put in place because of a food safety 
issue?
    Ms. Gorton. Mr. Chairman, no, in my opinion, it was not in 
place because of any food safety issue.
    Mr. Pitts. Mr. Farrell, your opinion?
    Mr. Farrell. No, it was not.
    Mr. Pitts. Mr. Conrad?
    Mr. Conrad. Mr. Chairman, no, it was not.
    Mr. Pitts. Dr. Otwell?
    Mr. Otwell. No, it was not, sir.
    Mr. Pitts. All right.
    Again, I will do a question to all of you. How does the 
USDA food safety inspection program impact the catfish market 
and the prices for consumers and your costs of doing business?
    Ms. Gorton?
    Ms. Gorton. Well, effectively, it is working to eliminate 
my ability to process fresh catfish, because I am not able to 
schedule the inspection in a way that meets our customers' 
order patterns. And so it is effectively eliminating domestic 
catfish and imported catfish from our line of products that 
we're able to offer. And we saw some of the Nation's largest 
retailers, many of whom are based in the South, who want this 
product.
    Mr. Pitts. Mr. Farrell?
    Mr. Farrell. Well, for us, it would only apply to the wild 
catfish. And we would be forced to stop selling it because our 
local seafood suppliers don't want to have to deal with two 
government agencies. They only want to have to deal with the 
FDA.
    Mr. Pitts. Mr. Conrad?
    Mr. Conrad. Thank you, Mr. Chairman. Our restaurants are 
family-style restaurants, and we serve blue-collar workers and 
working-class families. And the access to low-cost protein is 
vitally important to restaurants like ours. And any time you 
eliminate that low-cost protein and drive consumers to other 
proteins, it adversely affects our consumers and our customers.
    Mr. Pitts. Dr. Otwell?
    Mr. Otwell. The regulation will confuse selection and limit 
access to a resource that is preferred and has health benefits.
    Mr. Pitts. Dr. Otwell, if the FDA was in charge of catfish 
inspection, would they have been able to stop the imported 
shipments that Mr. Harper mentioned?
    Mr. Otwell. They were aware of these. In fact, some of the 
information that directed some of the USDA scrutiny was based 
on prior work of the Food and Drug Administration. Their 
targeting methods of suspect product gives you some route for 
scrutiny.
    So the point is the FDA program, by being science-based and 
focused on reasonably likely things to occur, as they follow in 
their legislation, gave us enough alert to problematic areas. 
And USDA used that information to help them as well.
    Mr. Pitts. Mr. Conrad, you work with catfish suppliers, 
right?
    Mr. Conrad. Yes, sir.
    Mr. Pitts. What has been their experience with the program? 
What has their experience been like? How has it impacted their 
business?
    Mr. Conrad. Mr. Chairman, we work with both imported and 
domestic catfish producers. And I can tell you, it is a poorly 
kept secret that the catfish industry itself is somewhat 
divided on this issue, if you will.
    Mr. Pitts. There are rumors that this program could be 
expanded to include shrimp. I think you mentioned that. What 
would happen to your business if shrimp were regulated by the 
USDA?
    Mr. Conrad. We actually source quite a bit of domestic 
shrimp from the Gulf of Mexico. However, in the United States, 
a large percentage of the shrimp consumed is imported shrimp. 
So if you see that increased cost go to the shrimp market as 
well, you could see a substantial cost increase of the domestic 
product. That would make it extremely hard for us to continue 
offering those products to our consumers.
    Mr. Pitts. Ms. Gorton, what is your response to that 
question?
    Ms. Gorton. So, at a time where food prices are rising, and 
particularly seafood prices, at the same time we are asking 
American consumers to consume more seafood. If farm-raised 
products like shrimp or tilapia or farm-raised salmon were to 
fall under USDA regulation, our costs would increase 
dramatically. It would severely impact my business in 
absolutely detrimental ways.
    Mr. Pitts. My time has expired. The chair now recognizes 
the ranking member, Mr. Green, 5 minutes for questions.
    Mr. Green. Thank you, Mr. Chairman.
    And thank our panel for being here.
    We heard at FDA that catfish is a low-risk commodity, a 
view I think the panel shares. I think it is noteworthy to 
highlight that Ms. Gorton stated in her testimony that you are 
more likely to be struck by lightning than become sick from 
eating catfish.
    However, I want to hear from more of the group about the 
safety profile of catfish and if there are unique 
characteristics that would require the product to be regulated 
differently.
    Mr. Otwell, your testimony highlighted that catfish is a 
low-risk product. Can you further explain on how you came to 
this conclusion?
    Mr. Otwell. I base this conclusion on the evidence that 
there haven't been any reports of illnesses associated with the 
consumption of this product, the dramatic historical increase 
in consumption over the last two decades, and there is no 
evidence that this is causing problems.
    The prevailing concern which there is evidence for, that 
there is some misuse of antibiotics, or drugs, if you will, in 
this product and other aquaculture products, does not impose an 
immediate food safety risk. The primary concern that that is 
introducing is the concern for the--you may have heard the term 
increasing microbial resistance in the environment by using 
excessive antibiotics. This, again, is not unique to catfish or 
aquaculture as a whole; it is prolific throughout our whole use 
of foods and medications.
    So the point is FDA is aware of that, they have focused on 
it. And it goes back to the 2 or 4 percent number that is 
thrown out about their inspection. They are targeting that 
specific concern, and that is why we are aware of it in this 
room today.
    Mr. Green. OK.
    Ms. Gorton, given that your business is experienced in 
processing over 100 types of seafood products, are you aware of 
any safety issues unique to catfish that would necessitate this 
extra regulatory system?
    Ms. Gorton. No, Congressman, I am not. And, in fact, we 
have been processing both domestic and imported catfish for 
years and have had no food safety concerns or violations.
    Mr. Green. Let me go to the safety of the imports. As we 
have heard in testimony from various witnesses, catfish is a 
low-risk fish. Salmonella is the primary food safety hazard 
associated with catfish. We have also heard that the volume of 
seafood imports has increased substantially and that catfish 
accounts for about 4 percent of the seafood imports.
    I think we all agree that safety is important of the food 
supply. However, the CDC reports that, despite the increased 
risk of imported seafood, the U.S. experienced a decrease in 
outbreaks of foodborne illnesses related to fish consumption.
    Going back to Mr. Otwell, if you are familiar with the 
Nation's seafood inspection programs, to what can we attribute 
the decline of foodborne illnesses related to fish consumption 
in America? In your opinion, does FDA's longstanding risk-based 
program play a role in that decrease?
    Mr. Otwell. The Centers for Disease Control--that was a 
long question.
    Mr. Green. Yes.
    Mr. Otwell. I will try to get some of it. But what I heard 
is--the Centers for Disease Control is probably the best 
authority of keeping responsible data to reflect that the 
illnesses from consumption of fish in the United States have 
dramatically increased since the implementation of HACCP. That 
is the strongest endorsement for the FDA HACCP program.
    I don't know if that answers your question. It was a long 
question. Was there another point I should speak to?
    Mr. Green. Well, does the FDA's longstanding risk-based 
program play a role in this decrease?
    Mr. Otwell. Absolutely. You can point to one dramatic 
thing, and a previous GAO report also discovered this. The 
increased awareness that HACCP has brought and the 
communication, not only between companies but between 
countries, of dealing with the prevailing issues and the 
possible controls to prevent the problem, as opposed to the 
approach that USDA has, to catch the problem. Prevention is a 
far more cost-effective approach.
    Mr. Green. OK.
    On the panel, as business owners, you would be the first 
line of defense if someone becomes ill from being served by 
you, and you have the confidence that the catfish you purchase 
is safe to sell and serve your customers. And you are satisfied 
with the FDA alone doing the inspection instead of the 
Department of Agriculture. Is that true?
    Mr. Farrell. That is very true. We have a tremendous 
responsibility to our customers and to our staff to provide 
safe meals, and if we thought for a New York second there was a 
problem with any product, whether it is seafood or otherwise, 
we wouldn't serve it.
    Mr. Green. Well, you are the canary in the coal mine, 
because----
    Mr. Farrell. Unfortunately.
    Mr. Green [continuing]. Your customers, I am sure, will 
tell you.
    Mr. Chairman, I yield back my time.
    Mr. Pitts. The chair thanks the gentleman and now 
recognizes the vice chairman, Mr. Guthrie, 5 minutes for 
questions.
    Mr. Guthrie. Thank you, Mr. Chairman.
    Ms. Gorton, in your testimony, you note that the USDA FSIS 
will require countries that export catfish to establish 
equivalence standards. What do countries have to do to 
establish equivalency?
    Ms. Gorton. My understanding of that, Congressman, is that 
they need to meet USDA protocol, which is based on meat and 
poultry packing in the United States.
    My further understanding is that even countries such as 
Canada, one of our closest trading partners with whom we share 
a border, has taken 5, 6, 7 years to reach equivalency. So, 
effectively, if this rule is not repealed, we are going to be 
looking at a significant period of time with potentially not 
having access to this critical, low-cost product.
    Mr. Guthrie. So, obviously, this would impact global trade?
    Ms. Gorton. Yes.
    Mr. Guthrie. And so can you explain how this does not meet 
basic trade obligations? And what would happen if one of these 
countries decided to go to the WTO?
    Ms. Gorton. A lawyer is probably better able to answer that 
question than I am. However, because we do deal with a number 
of exporters from whom we import, they have made their position 
clear, in that they would seek to bring forth a WTO case. And I 
also understand that there have been a fair amount of opinions 
that they would be successful with that.
    The concern then becomes what would they do to retaliate, 
and that is where our farmed products here in the U.S. would 
potentially come under fire.
    Mr. Guthrie. So it would definitely affect global trade. 
Thanks. Thank you for that.
    Ms. Gorton. Yes, Congressman.
    Mr. Guthrie. Dr. Otwell, advocates of the program claim a 
100 percent inspection system is better. Can you explain why 
this claim is false and why the inspection programs do not 
ensure quality?
    Mr. Otwell. The term ``100 percent inspection'' is based on 
the fact that you would have an inspector on site at all times 
or some equivalent thereof. And it gives the implication that 
you are going to visualize all the problems that are occurring. 
That is the best way you can police something, is to see it 
happen and prevent it, to catch it, if you will.
    The prevailing concern, as we have noted here today, is the 
illegal use of antibiotics. That is the only problem we have 
been able to speak to. That is not something you can see and 
catch with 100 percent surveillance. It requires analysis and 
sampling, as the gentleman had been pointing out here earlier. 
And FDA, very much aware of the cost and burden in time of 
sampling, have come up with a targeted approach that is cost-
effective based on science and suspect product. You can't do 
100 percent sampling. That is a false implication.
    Mr. Guthrie. Thank you very much.
    And that completes my questions. I yield back my time.
    Mr. Pitts. The chair thanks the gentleman and now 
recognizes the gentleman from Virginia, Mr. Griffith, 5 minutes 
for questions.
    Mr. Griffith. Thank you very much, Mr. Chairman. I do 
appreciate it. And I appreciate your service to our country and 
your leadership and mentoring as we have gone through these 
committee processes on how to do things right since I got here 
in Congress some time ago. But do appreciate it very, very 
much.
    OK. Mr. Conrad, you indicated that your business would be 
affected if USDA took over shrimp. And I implied, but I want to 
make sure I was making the right connection, that you would buy 
your shrimp from foreign sources because they would be able to 
undercut the American market, although it is fairly small, they 
would be able to undercut the American market, and you are 
currently buying American shrimp. Is that what I understood?
    Mr. Conrad. No, sir. I----
    Mr. Griffith. All right. I got it wrong. You can't tell me 
that Libby Hill would stop selling shrimp.
    Mr. Conrad. No, sir, absolutely not.
    Mr. Griffith. So----
    Mr. Conrad. The price would have to be passed on to our 
consumers, Congressman. And I think that is where we are with 
catfish right now. Consumers are going to be paying the bill, 
in my opinion, for a problem that didn't exist, sir.
    Mr. Griffith. OK.
    Mr. Conrad. And I think that would be continued should the 
USDA move into shrimp as well.
    Mr. Griffith. Now, let's talk about a little tilapia.
    Mr. Conrad. Yes, sir.
    Mr. Griffith. You said that somebody from the USDA exceeded 
their authority. And, serving on the Energy and Commerce 
Committee, this is not shocking, that an agency would overstep 
their authority. We see that all the time in lots of areas, 
unfortunately.
    But you are saying that you got an oral report--and we are 
not stating it as definitive fact, but that you got an oral 
report that somebody who raises tilapia in your region had the 
USDA visit them and say you are going to have to register, even 
though all they raise is tilapia?
    Mr. Conrad. No, sir. It was a company that does not 
currently import catfish but is in the tilapia business, not 
necessarily in my region, but was visited by a USDA inspector.
    Mr. Griffith. OK. But they are a business that currently 
imports tilapia, or buys American, or does both foreign and 
American tilapia?
    Mr. Conrad. I am not sure about the American part, but they 
are in the tilapia business internationally.
    Mr. Griffith. All right. Because that would be a concern, 
as you may be aware. Although they don't sell to Libby Hill, I 
have a large tilapia indoor facility in my district that ships 
to the Northeast live fish. So I have to keep an eye on that.
    Ms. Gorton, I have to ask, because I once worked at 
McDonald's many, many years ago, back in the 1970s, were you 
the providers of our Filet-O-Fish sandwich? Because I know that 
there was a Gorton's company that provided all our fish at that 
time.
    Ms. Gorton. No, Congressman, but to clear up any confusion, 
my great-great-grandfather started what is now Gorton's of 
Gloucester, who provides McDonald's with their sandwiches. And 
my grandfather left that business in 1928 and started our 
company.
    Mr. Griffith. OK. So it is a family connection but not the 
same company.
    Ms. Gorton. Exactly.
    Mr. Griffith. All right. I do appreciate that.
    And you indicated it would be really hard for you all. Is 
it just that it would force a lot of folks out of the catfish 
market, as Mr. Conrad has said?
    Ms. Gorton. Yes, sir. And just as he also shared, it would 
force us to pass along a price increase to consumers, who 
really are already paying high prices for all seafood and just 
can't afford it. And so they are going to look at alternative 
proteins, and I, for one, Congressman, don't want to be eating 
bugs in 20 years. So we are really committed to seafood.
    Mr. Griffith. I can appreciate that very much.
    Well, I thank you all for being here.
    And, obviously, Mr. Farrell, I read your testimony and 
asked questions earlier off of that. And that affects why you 
all seem to buy a lot from North Carolina. It is probably fish 
being caught in Virginia and other places and the Chesapeake 
Bay. And so we want to make sure that that wild-caught catfish, 
particularly the blue catfish, is still available for your 
restaurants, because it helps the bay and it helps put money in 
the pockets of Virginia businesses.
    Mr. Farrell. And can I just say that a lot of the fish that 
we are buying is actually from the Chesapeake Bay region.
    Mr. Griffith. That is what I suspected, yes, sir.
    Well, I appreciate it very much.
    And, again, Mr. Chairman, it is with some sadness that I 
yield back for the last time to you, Mr. Chairman.
    Mr. Pitts. The chair thanks the gentleman.
    Thank you, all the members, for your kind comments.
    That concludes the questions of members present. We will 
have some followup questions. Other members may have written 
questions. We will send them to you. We ask that you please 
respond.
    Thank you very much for coming in. It has been very, very 
informative.
    I remind members that they have 10 business days to submit 
questions for the record. I ask that members submit their 
questions by the close of business on Wednesday, December 21.
    Excellent hearing for our final one. I think it is time to 
go to lunch. Thank you.
    Without objection, the hearing is adjourned.
    [Whereupon, at 11:56 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    Today's hearing is a valuable opportunity to hear more 
about the USDA Catfish Inspection Program. The Energy and 
Commerce Committee on a bipartisan basis, along with the 
nonpartisan government watchdog, the General Accountability 
Office, have warned about the harm, waste, and duplication of 
the USDA Catfish Inspection Program. Rather than improve our 
country's food safety, the program will further fracture our 
food safety inspection programs. In addition, the USDA catfish 
program will harm businesses and will increase prices for 
consumers and ultimately harm the catfish market.
    That is why the Senate voted overwhelmingly under the 
Congressional Review Act to reject the USDA Catfish Inspection 
Program. I appreciate our witnesses for being here and for 
Health Subcommittee Chairman Pitts holding this hearing today 
so we can more closely examine this important issue.
    Before I yield the remainder of my time, I want to take a 
moment to recognize Mr. Pitts, the subcommittee chairman of the 
past six years, who is retiring at the end of this Congress. 
Joe Pitts has been a leader for some of the committee's 
greatest accomplishments: reforming how Medicare pays America's 
physicians, improving the safety of our nation's drug supply 
chain, advancing dozens of bills to improve our nation's public 
health, and helping shepherd through the 21st Century Cures Act 
that will land shortly on President Obama's desk.
    Joe, as a chairman your accomplishments and contributions 
are tremendous. You have been an unwavering and outstanding 
partner during your tenure as chairman, particularly as we 
journeyed down the path to Cures. The roundtables, the 
hearings, the markups, you were here pushing every step of the 
way and I cannot thank you enough. You have been a strong, 
gracious, and remarkable leader for this committee, leading one 
of the most productive subcommittees on Capitol Hill. Thank you 
for your tireless efforts and your friendship. I wish you 
nothing but the best to you and Ginny in this next chapter.





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
